                               Office of Inspector General
                              Corporation for National and
                                       Community Service




AUDITOF CORPORATION
                 FOR NATIONAL
                            AND
     COMMUNITY
             SERVICEGRANTS
          AWARDED
                TO THE
   RHODEISLANDSERVICEALLIANCE

         OIG REPORT    04-22
                  NUMBER



                                               Cornoration for              a


                                               NATIONAL
                                               COMMUNITY
                                               SERVICE-




                       Prepared by:

            Leonard G. Birnbaum and Company
                  6285 Franconia Road
                Alexandria, Virginia 22310




This report was issued to Corporation management on September 23, 2004.
Under the laws and regulations governing audit follow-up, the Corporation is to
make final management decisions on the report's findings and
recommendations no later than March 23, 2004, and complete its corrective
actions by September 23, 2005. Consequently, the reported findings do not
necessarily represent the final resolution of the issues presented.
                                 Office of Inspector General
                       Corporation for National and Community Service
                                     Audit Report 04-22

Audit of Corporation for National and Community Service Grants Awarded to the Rhode Island
                                       Service Alliance

OIG Summary

The Office of Inspector General (OIG), Corporation for National and Community Service
(Corporation), retained Leonard G. Birnbaum and Company to perform an incurred-cost audit of
grants awarded to the Rhode Island Service Alliance (RISA). The objectives of the audit were to
determine whether:

       financial reports prepared by RISA presented fairly the financial results of the awards;

       internal controls were adequate to safeguard Federal funds;

       The RISA and its subrecipients had adequate procedures and controls to ensure
       compliance with Federal laws, applicable regulations, and award conditions, and that
       member performed service appropriate for the programs;

       award costs reported to the Corporation were documented and allowable in accordance
       with the award terms and conditions; and

       The RISA had established adequate oversight and informed subrecipients of the
       Corporation's Government Performance and Results Act (GPRA) goals.

For the grants audited, the Commission claimed costs of $7,939,976, of which the auditors
questioned $148,959 of unallowable claimed costs and $32,850 of education awards. Overall,
the auditors questioned less than two percent of claimed costs. Costs questioned for allowability
represent amounts for which documentation shows that recorded costs were expended in
violation of regulations or specific award conditions, or costs that require an interpretation of
allowability. The auditors also noted instances of noncompliance with provisions of Federal
laws, regulations and grant award provisions. These instances of noncompliance are considered
collectively to be a material weakness. In addition, the auditors noted one internal control
finding that is considered to be a material weakness.

The Commission does not agree with the audit report's conclusion that the noncompliance
findings and internal control finding are material weaknesses. The RISA disagrees with the
auditors' interpretation of grant provisions and whether RISA7spolicies, procedures and
practices meet the requirements of the provisions. These comments and RISA7scorrective
actions will be reviewed by the Corporation as part of the audit resolution process.
The Office of Inspector General has reviewed the report and the work papers supporting the
auditors' conclusions. Our review of the auditors' work papers disclosed no instances where
Leonard G. Birnbaum and Company did not comply, in all material respects, with generally
accepted government auditing standards.
                     Audit of Corporation for National and Community Service
                                        Grants Awarded to
                                  Rhode Island Service Alliance
                                          Providence, RI

                                                      Table of Contents



REPORT SUMMARY AND HIGHLIGHTS

        Results in Brief ............................................................................................................... 1

        Grant Programs Audited ................................................................................................ .2

        Costs Questioned ............................................................................................................ 2

        Compliance .................................................................................................................... .3

        Internal Controls .............................................................................................................4

        Purpose and Scope of Audit ............................................................................................ 4

        Background .................................................................................................................... .5


INDEPENDENT AUDITOR'S REPORT ................................................................................. .7

FINANCIAL SCHEDULES

        Consolidated Schedule of Award Costs ........................................................................ ..9

        Exhibit A - Schedule of Award Costs:
                    AmeriCorps ............................................................................................... .12

                   Schedule A-1 - Schedule of Award Costs:
                                  City Year, Inc. .......................................................................... 13

                   Schedule A-2 - Schedule of Award Costs:
                                  Children's Crusade For Higher Education. ..........................16
                   Schedule A-3 - Schedule of Award Costs:
                                  Public Education Funds .......................................................... .18
                   Schedule A-4 - Schedule of Award Costs:
                                  International Gallery For Culture & Heritage .........................2 1
                                       Table of Contents - continued

                                                                                                                      &
    Exhibit B - Schedule of Award Costs:
                Learn & Serve (L&S) ................................................................................23
    Exhibit C - Schedule of Award Costs:
                Program Development and Training (PDAT) .......................................... .24

    Exhibit D - Schedule of Award Costs:
                Administrative .......................................................................................... .25


COMPLIANCE AND INTERNAL CONTROLS

    Independent Auditor's Report on Compliance and Internal Controls
           Over Financial Reporting ..................................................................................26
              Compliance Findings ....................................................................................... .27

              Internal Control Findings .................................................................................. 39

              Follow-up on Pre-Audit Survey Findings. ....................................................... 41

RESPONSES TO REPORT

      Rhode Island Service Alliance ..................................................................... Appendix A

     Corporation for National and Community Service ....................................... Appendix B
REPORT SUMMARY AND HIGHLIGHTS
                        L E O N A R D G. B I R N B A U M             AND     COMPANY, LLP
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510
                                                           -

                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                          WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                    SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                       REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M . CLARKE




        Office of Inspector General
        Corporation for National and Community Service


        This report is issued under an engagement to audit the costs claimed by the Rhode Island Service
        Alliance (RISA) and its subrecipients from July 1, 2000, through December 3 1, 2003, under the
        grants awarded by the Corporation for National and Community Service (Corporation). This
        report focuses on the audit of claimed costs, instances of noncompliance with Federal laws,
        applicable regulations or award conditions, and internal control weaknesses disclosed during the
        audit of RISA and its subrecipients.


                                                  Results in Brief

        As a result of our audit, we are questioning costs totaling $1 81,539, or approximately 2.3 percent
        of the total $7,939,976 in costs claimed by RISA. Questioned costs are costs for which there is
        documentation that the recorded costs were expended in violation of the law, regulations or
        specific conditions of the award, or those costs which require additional support by the grantee or
        require interpretation of allowability by the Corporation. Of these questioned costs, $32,580
        relate to Education Awards. Other costs questioned include excess living allowance charges,
        living allowances questioned because key eligibility documentation could not be located, the
        impact of recorded training hours in excess of Corporation grant limitations, miscellaneous
        reclassifications and adjustments, and related administrative expenses. Details related to
        questioned costs appear in the Independent Auditor's Report.




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
                                         Grant Programs Audited

Our audit of RISA covered financial transaction, compliance and internal controls testing of the
following program awards funded by the Corporation:

   Program                Award Number                    Award Period                    Audit Period
AmeriCorps                00ASCRI04 1                  8/1/00 to 9/30/03              8/1/00 to 9/30/03
AmeriCorps                00ASFRI04 1                  7/1/00 to 9/30/03              7/1/00 to 9/30/03
Learn & Serve             00LCSRI040                   9/1/00 to 12131/03             9/1/00 to 12131/03
America's Promise         99APSRI068                   10/1/00 to 12/21/01            10/1/00 to 12/21/01
America's Promise         0 1APSRIO68                  10/15/01 to 10/14/04           10/15/01 to 12/31/03
Disability Funds          00DSCRI039                   1/1/01 to 12/31/03             1/1/01 to 12/31/03
Education Awards          01EDSRI023                   1/1/03 to 12/31/03             1/1/03 to 12/31/03
PDAT                      95PDSRIA39                   1/1/95 to 12/31/01             1/1/01 to 12/31/01
PDAT                      02PDSRIA39                   1/1/02 to 12/31/02             1/1/02 to 12/31/02
PDAT                      03PTHRI00 1                  1/1/03 to 12/31/03             1/1/03 to 12/31/03
Administrative            OlSCSRIA39                   1/1/01 to 12/31/03             1/1/01 to 12/31/03

Our audit of the costs claimed by RISA under these awards disclosed the following:

                                                                                   Percentage of
                                                          Amount                  BudaetIClaimed
Award Budget                                            $ 8,787,605                    -
Claimed Costs                                           $ 7,939,976                  90.3 percent
Questioned Costs (Incl. Ed. Awards)                     $   181,539                   2.3 percent

                                              Costs Questioned

The following summarizes the costs questioned on these awards:

AmeriCorps Grant

             AmeriCorps Member Compliance Issues
             Members' Training Costs in Excess of 20 Percent Ceiling
             Living Allowance Payments in Excess of Limits
             Questioned Staff Salaries (Net)
             Administrative Costs Related to Costs ~uestioned'
         Subtotal Costs Questioned
        Education Awards

1 Administrative costs questioned pertain to only those subrecipients that had claimed administrative costs at the 5
percent ceiling level. Administrative costs at some subrecipients exceeded the 5 percent ceiling for individual
program years. These costs are identified elsewhere as noncompliance issues rather than costs questioned in
accordance with the guidance in the Office of Inspector General (OIG) Full Scope Audit Program.
        Total Costs Questioned - AmeriCorps

Our audit disclosed certain questionable costs and/or misclassifications in other Corporation
grant programs performed by RISA, which were de minimis in amount.

In most cases, we used a random sampling method to test the costs claimed. Based upon this
sampling plan, questioned costs in this report may not represent total costs that may have been
questioned had all expenditures been tested. In addition, we have made no attempt to project
such costs to total expenditures incurred, based on the relationship of costs tested to total costs.
For a complete discussion of these questioned costs, refer to the Independent Auditor's Report.

                                                   Compliance

Our audit disclosed the following instances of noncompliance with Federal laws, applicable
regulations and award conditions:

         1. The RISA did not submit Federal Cash Transaction Reports on a timely basis.
         2. The RISA Financial Management System was not maintained in accordance with
               grant provisions.
         3. Non-allocable costs were charged to the PDAT grant.
         4. The RISA timekeeping system is not in accordance with OMB Circular A-122.
         5. Some subrecipients paid living allowances in excess of authorized amounts.
         6. Some subrecipients incurred more time for training of AmeriCorps members than
               AmeriCorps provisions allow.
         7. A subreceipient did not maintain matching cost records in accordance with
               AmeriCorps provisions.
         8. Some subrecipients did not maintain adequate documentation for AmeriCorps
               member eligibility.
         9. Two subrecipients exceeded the administrative cost maximum of 5 percent of total
               costs.
         10. Some AmeriCorps member files were missing required documentation.
         I I . Some subrecipients included training for the high school equivalency exam in the
               service time of AmeriCorps members.

These findings are collectively considered to be a material ~ e a k n e s s . ~




2 A material weakness is a reportable condition in which the design or operation of one or more of the internal
control components does not reduce to a relatively low level the risk that errors or irregularities in amounts, which
would be material to the financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.
                                       Internal Controls

Our audit disclosed several weaknesses in RISA's internal controls. The RISA's financial
management system does not have an adequate disasterhack-up plan. In addition, finding Nos.
1 through 7, and finding No. 9, as set forth in the Compliance section of the report, are also
considered a finding on internal control.

                                 Purpose and Scope of Audit

Our audit covered the costs claimed under Corporation Grant Nos. 00ASCRI041,00ASFRI041,
00LCSRI040,99APSRI068,01APSRI068,00DSCRI039,01EDSRI023,95PDSRIA39,
02PDSRIA39,03PTHRI001, and 01 SCSRIA39.

The principal objectives of our audit were to determine whether:

           financial reports prepared by RISA presented fairly the financial results of the
           awards;

           internal controls were adequate to safeguard Federal funds;

           RISA and its subrecipients had adequate procedures and controls to ensure
           compliance with Federal laws, applicable regulations, award conditions, and that
           member services were appropriate to the programs;

           award costs reported to the Corporation were documented and allowable in
           accordance with the award terms and conditions; and

           RISA had established adequate oversight and informed subrecipients of the
           Corporation's Government Performance and Results Act (GPRA) goals.

We performed the audit in accordance with auditing standards generally accepted in the United
States of America and Government Auditing Standards issued by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain reasonable
assurance about whether the amounts claimed against the awards, as presented in the
Consolidated Schedule of Award Costs and the grant-specific Schedules of Award Costs
(Exhibits A through D), are free of material misstatement. An audit includes examining, on a
test basis, evidence supporting the amounts and disclosures in Exhibits A through D. An audit
also includes assessing the accounting principles used and significant estimates made by the
auditee, as well as evaluating the overall financial schedule presentation. Our audit included
reviews of audit reports and working papers prepared by the independent public accountants for
the RISA and its subrecipients in accordance with the requirements of OMB Circular A-133,
Audits of States, Local Governments and Non-profit Organizations. Our audit also followed up
on the findings and recommendations in the Pre-Award Survey Report of RISA dated January
 11, 2000 (CNS OIG Report 00-26). We believe our audit provides a reasonable basis for our
opinion.
                                                4
With regard to GPRA, AmeriCorps grantees and subrecipients provide progress reports that are
maintained in the Web-Based Reporting System (WBRS). The Corporation develops program
reporting guidelines that cascade from its Federal reporting requirements. The RISA does not
make continuation grants available to subrecipients that do not meet program objectives, unless
extenuating circumstances prevented the subrecipient from meeting its objectives. Evaluation
reports from consultants are utilized to monitor and assess program accomplishments. In
summary, the process appears to be operating as intended. The RISA is interested in obtaining
useful reports from its subgrantees to forward to the Corporation. The evaluation consultant
judges the adequacy of information reported on goal accomplishment. The RISA takes
corrective action on identified reporting deficiencies.

The contents of this report were disclosed to and discussed with RISA at an exit conference on
July 14, 2004. In addition, we provided a draft of this report to RISA and to the Corporation for
comment on July 22, 2004, and received responses from both RISA and the Corporation on July
19 and July 23, 2004, respectively. Their responses are included in their entirety as appendices
A and B, respectively.




The Corporation, pursuant to the authority of the National and Community Service Act, as
amended, awards grants and cooperative agreements to State commissions such as RISA and
other entities to assist in the creation of full-time and part-time national and community service
programs.

The Rhode Island Commission for National and Community Service (the Commission) is a
nonprofit corporation created by an act, incorporating the Rhode Island Commission for National
and Public Service, which was enacted by the Rhode Island General Assembly at its January
1994 session. The Commission began operations in October 1994. The Commission is exempt
from Federal and State income taxes as a public charity under Section 501(c)(3) of the Internal
Revenue Code. The Commission is headquartered in Providence, Rhode Island. It is known in
the community as the Rhode Island Service Alliance (RISA) and has registered this name as a
"fictitious" name with the Rhode Island Secretary of State.

The Commission's primary purpose is to carry out, on behalf of the State of Rhode Island, the
objectives of the National and Community Service Trust Act of 1993 and for such other
charitable and educational purposes as are within the meaning of Section 501(c)(3) of the
Internal Revenue Code.

The RISA has received approximately $8.7 million in funding and exercised $7.9 million in
drawdowns from Corporation funds since 2001, including AmeriCorps Formula Funds,
AmeriCorps Competitive Funds, Learn & Serve Funds, Disability Funds, Education Award
Funds, PDAT Funds, and Administrative Funds. Of this amount, approximately $6.9 million
was distributed to subrecipients. The majority of RISA's subrecipients are State entities or
nonprofit organizations.
As of December 31, 2003, RISA had received funding fkom the Corporation for various
programs within the scope of this engagement in the amount of $8,787,605. The majority of this
amount has been subgranted to numerous entities to carry out community service programs. A
brief synopsis of the programs follows:

                                              Funding      Claimed within   Drawdowns
                                             Authorized     Audit Period During Audit Period

00ASCRI041 - AmeriCorps - Competitive        $ 5,313,726     $   5,130,599   $ 4,955,582
00ASFRI041 - AmeriCorps - Formula
     Total ArneriCorps Funds

00LCSRI040 - Learn & Serve

99APSRI068 - America's Promise
01APSRI068 - America's Promise
     Total America's Promise Funds

00DSCRI039 - Disability Funds

0 1EDSRI 023 - Education Awards

95PDSRIA39 - PDAT
02PDSRIA39 - PDAT
03PTHRI001- PDAT
     Total PDAT Funds

0 1SCSRIA39 Administrative Funds

TOTALS - Grants Administered
            by RISA

"The differences between the amount claimed and amount drawndown are generally due to
timing issues.


                                        Report Release

This report is intended for the information and use of the Office of Inspector General,
management of the Corporation for National and Community Service, the Rhode Island Service
Alliance and its subrecipients, and the U.S. Congress. However, this report is a matter of public
record and its distribution is not limited.
                        LEONARD G . BIRNBAUM                         AND     COMPANY, L L P
                                          CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA, VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A. LEIPER                                                                                           WASHINGTON. D.C.

LEONARD G . BIRNBAUM                                                                                    SUMMIT, NEW JERSEY

DAVID SAKOFS                                                                                        REDWOOD CITY, CALIFORNIA

CAROL A. SCHNEIDER
DORA M. CLARKE



        Office of Inspector General
        Corporation for National and Community Service

                                    INDEPENDENT AUDITOR'S REPORT

        We have audited the costs incurred by the Rhode Island Service Alliance (RISA) for the award
        numbers listed below. These costs, as presented in the Consolidated Schedule of Award Costs
        and the grant-specific Schedules of Award Costs (Exhibits A through D) are the responsibility of
        RISA's management. Our responsibility is to express an opinion on the consolidated Schedule
        of Award Costs and Exhibits A through D based on our audit.

           Program            Award Number                     Award Period                    Audit Period
        AmeriCorps            00ASCRI04 1                   8/1/00 to 9/30/03              8/1/00 to 9/30/03
        AmeriCorps            00ASFRI04 1                   7/1/00 to 9/30/03              7/1/00 to 9/30/03
        Learn & Serve         00LCSRI040                    9/1/00 to 12131/03             9/1/00 to 12131/03
        America's Promise     99APSRI068                    10/1/00 to 12/21/01            10/1/00 to 12/21/01
        America's Promise     0 1APSRIO68                   10/15/01 to 10/14/04           10/15/01 to 12/31/03
        Disability Funds      00DSCRI039                    1/1/01 to 12/31/03             1/1/01 to 12/31/03
        Education Awards      0 1EDSRI023                   1/1/03 to 12/31/03             1/1/03 to 12/31/03
        PDAT                  95PDSRIA39                    1/1/95 to 12/31/01             1/1/01 to 12/31/01
        PDAT                  02PDSFUA39                    1/1/02 to 12/31/02             1/1/02 to 12/31/02
        PDAT                  03PTHRI00 1                   1/1/03 to 12/31/03             1/1/03 to 12/31/03
        Administrative        01 SCSRIA39                   1/1/01 to 12/31/03             1/1/01 to 12/31/03

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards, issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement. An audit
        includes examining, on a test basis, evidence supporting the amounts and disclosures in the
        financial schedules. An audit also includes assessing the accounting principles used and
        significant management estimates, as well as evaluating the overall financial schedule
        presentation. We believe our audit provides a reasonable basis for our opinion.




                             MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
In our opinion, except for the omission of the supporting source documentation related to the
$181,539 in questioned costs discussed above, the Consolidated Schedule of Award Costs and
the grant-specific Schedules of Award Costs (Exhibits A through D and related Schedules)
referred to above present fairly, in all material respects, the costs claimed for the period July 1,
2000, to December 3 1, 2003, in conformity with generally accepted accounting standards in the
United States of America.

In accordance with the Government Auditing Standards, we have also issued our report, dated
June 30, 2004, on compliance and on internal controls over financial reporting.

This report is intended for the information and use of the Corporation for National and
Community Service's Office of Inspector General, management of the Corporation for National
and Community Service, the Rhode Island Service Alliance and its subrecipients, and the U.S.
Congress. However, this report is a matter of public record and its distribution is not limited.




Leonard G. Birnbaum and company, ~ L P
Alexandria, Virginia
June 30,2004
                               Rhode Island Service Alliance
                            Consolidated Schedule of Award Costs


                  Corporation for National and Community Service Awards



                                                                             Questioned
                                  Approved        Claimed       Questioned   Education
Award Number     Program           Budget          Costs          Costs       Awards    Reference

00ASCRI041     AmeriCorps         $ 5,313,726    $ 5,130,599    $ 128,000    $   21,263
00ASFRI04 1    AmeriCorps           1,549.105      1,318,556       20.959        11,317

     Total AmeriCorps               6,862,83 1     6,449,155       148,959       32,580   Exhibit A

00LCSRI040     Learn & Serve         705.000        705,000                           -   Exhibit B

99APSRI068     America's Prom.        133,000
0 lAPSRI068    America's Prom.         69,000

     Total America's Promise         202,000                                          -   N/A

00DSCRI039     Disability Funds        74,000        40,300

01EDSRI023     Educ. Awards           172,000                                         -   N/A

95PDSRL439     PDAT                   101,000        101,000
02PDSRIA39     PDAT                   111,000        111,000
03PTHRI00 1    PDAT                   103,000        103,000

     Total PDAT Funds                 3 15.000       3 15,000                         -   Exhibit C


0 1SCSRIA39    Administrative        456,774        430,521                           -   Exhibit D

     Totals                       $ 8,787.605    $ 7.939.976    $ 148.959    $   32?580
                                Rhode Island Service Alliance
                       Notes to Consolidated Schedule of Award Costs


1. Summarv of Significant Accounting Policies


Reporting Entity

The accompanying consolidated Schedule of Award Costs includes amounts budgeted, claimed,
and questioned under AmeriCorps, Administrative, Program Development and Training and
other grants awarded to the Rhode Island Service Alliance (RISA) by the Corporation for
National and Community Service (Corporation) for the period from July 1, 2000, to December
31,2003.

The RISA awards its AmeriCorps grant funds to numerous subrecipients that administer the
AmeriCorps program and report financial and programmatic results to RISA.


Basis of Accounting

The accompanying Schedule has been prepared to comply with the provisions of the grant
agreements between the Corporation and RISA. The information presented in the Schedule has
been prepared from the reports submitted by RISA to the Corporation. The basis of accounting
used in preparation of these reports differs slightly from accounting principles generally accepted
in the United States of America as follows:

       Equipment

Equipment is charged to expense in the period during which it is purchased instead of being
recognized as an asset and depreciated over its useful life. As a result, the expenses reflected in
the Schedule of Award Costs include the cost of equipment purchased during the period rather
than a provision for depreciation. The equipment acquired is owned by RISA while used in the
program for which it was purchased or in other future authorized programs. However, the
Corporation has a reversionary interest in the equipment. Its disposition, as well as the
ownership of any proceeds therefrom, is subject to Federal regulations.


       Inventory

Minor materials and supplies are charged to expense during the period of purchase.
       Questioned Costs

Questioned costs are costs for which there is documentation that the recorded costs were
expended in violation of laws, regulations or specific conditions of the awards, or those costs
which require additional support by the grantee, or costs which require interpretation of
allowability by the Corporation.
                                                                                         Exhibit A


                                Rhode Island Service Alliance
                                  Schedule of Award Costs
                       Corporation for National and Community Service
                  Award Numbers 00ASCRI041 and 00ASFRI041 (AmeriCorps)
                             July 1,2000, to December 31,2003
                                                                      Questioned
                                        Claimed       Questioned      Education
Detailed Audits of AmeriCorps            Costs       Claimed Costs     Awards        Reference
Subrecipients


City Year, Inc.                        $2,423,449       $   42,713    $     4,725    Schedule A-1

Children's Crusade For
Higher Education                                                                 -   Schedule A-2

Public Education Funds -
Parents Making a Difference              1,093,710          80,843         16,538    Schedule A-3

International Gallery For
Culture & Heritage                       1,095,833          20,959         11,317    Schedule A-4

Total - Detailed Audits                $5.765.530       $ 148.959     $    32,580    Note 1




Notes

1.      The total claimed costs reported include costs claimed by subrecipients that were not tested
        as part of this audit. During the period covered by our audit, RISA had 12 AmeriCorps
        program subrecipients. Accordingly, we used a sampling approach at the selected field sites
        to test the costs claimed for Program Years 2000-01 to 2002-03.
                                                                                  Schedule A-1
                                                                                    Page 1 of 3
                               Rhode Island Service Alliance
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCRI041
                           August 1,2000, to September 30,2003

                                     City Year, Inc. (CYI)

                                                                                Reference

Approved Budget (Federal Funds - 3 Years)                                       Note 1
Claimed Costs                                                                   Note 2
Questioned Costs
   Member Compliance Issues                                                     Note 3
   Excess Training Costs                                                        Note 4
   Excess Living Allowance Charges                                              Note 5
   Staff Salaries                                                               Note 6
   Administrative Costs                                                         Note 7
Total Questioned Costs

Questioned Education Award                                                      Note 8


Notes
1. The amount shown above as Approved Budget represents the total gross funding to City Year,
   Inc. (CYI) for Program Years 2000-01 to 2002-03, according to the budget schedules for the
   RISA grants.
2. Claimed costs represent CYI's reported expenditures for the program year., tested (2000-01
   through 2002-03).
3. Compliance testing of AmeriCorps member files revealed that key eligibility documentation for
   some members was missing. Since member eligibility could not be validated through
   supporting source documentation in some cases, we questioned the claimed member living
   allowances, including FICA, associated with the unsupported/ineligible members. Questioned
   costs are summarized by type of missing documentation as follows:
                                                                                       Schedule A-1
                                                                                         Page 2 of 3

       Program Year                    Missing Documentation                         Amount
          2000-01                    Missing ContractICriminal Check             $       944
          2000-02                    Missing Contract                                  2,966
          2000-03                    Support For Residency Status                      5,242

          Total Eligibility Issues Questioned (includes FICA)                    $      9,152

4. ArneriCorps Special Provision 7(e) limits to 20 percent the aggregate amount of member service
   hours that can be spent on education and training activities. City Year exceeded this aggregate
   limitation in each year audited. We questioned members' living allowances, including FICA,
   related to this condition as follows:

              Program Year                                          Amount
                 2000-0 1                                       $     10,088
                 2000-02                                               9,876
                 2000-03                                               7,577

              Total Training Charges Questioned                 $     27.541

5. Costs questioned represent member living allowance payments charged to the grants that
   exceeded the program year(s) limits. We questioned members' living allowances, including
   FICA, related to this condition as follows:

              Program Year                                          Amount
                 2000-0 1                                       $            -
                 2000-02                                                315
                 2000-03                                                 97

              Total Costs Questioned                            $       412

6. We questioned staff salaries because of an unsupported adjustment to the salary allocation of the
   Executive Director in program year 2002-03. The amount of the questioned adjustment is
   $3,447, including FICA.

7. We questioned $2,161 in administrative costs because CYI claimed an administration
   percentage on the questioned costs in notes 3,4, 5 and 6 above.
                                                                                         Schedule A-1
                                                                                           Page 3 of 3

8. We questioned an education award of $4,725 because of member eligibility issues.

RISA 's Response

The RISA and CYI disagree with these questioned costs, but acknowledge that (1) member
documentation was, in fact, missing from the members' files, (2) training time exceeded the 20
percent limit, but that such training was appropriate, (3) some stipends exceeded the program year's
limits, but were nominal, and (4) the allocation of the Executive Director's salary was, in fact, based
on the budgeted allocation.

Auditor's Comment

Since RISA's response does not provide evidence disputing the questioned costs, the CYI
questioned costs remain unchanged.
                                                                                    Schedule A-2
                                                                                      Page 1 of 2
                               Rhode Island Service Alliance
                                 Schedule of Award Costs
                      Corporation for National and Community Service
                               Award Number 00ASCRI041
                           August 1,2000, to September 30,2003

                      Children's Crusade for Higher Education (CCHE)

                                                                                   Reference
Approved Budget (Federal Funds - 3 Years)                        $ 1,256.819         Note 1


Claimed Costs                                                                        Note 2


Questioned Costs
   Excess Training Costs                                                             Note 3
   Staff Salaries                                                                    Note 4


Total Questioned Costs                                                               Note 5


Notes
1. The approved budget amount of $1,256,819 represents total gross funding to the Children's
   Crusade for Higher Education (CCHE) for program years 2000-01 through 2002-03, per the
   budget schedules for RISA grants.
2. The claimed costs of $1,252,538 represents the amount of reported expenditures of CCHE for
   the years tested (2000-01 through 2002-03).
3. AmeriCorps Special Provision 7(e) limits to 20 percent the aggregate amount of member service
   hours that can be spent on education and training activities. The CCHE exceeded this limitation
   in program year 2000-01. The questioned members' living allowances, including FICA, related
   to this condition are $5,883.
                                                                                      Schedule A-2
                                                                                        Page 1 of 2
4. The amount shown as Costs Questioned is due to misclassifications in recording in program year
   2000-01.
5. The CCHE did not claim any administrative cost against Federal funds in these program years.
   All claimed administrative costs were accounted for as matching claims.
RISA 's Response
The RISA acknowledges that some subrecipients exceeded the 20 percent training time limitation,
but asserts that the aggregate AmeriCorps program training hours, for all subrecipients, were within
the limit. Based on this reasoning, RISA does not believe that this AmeriCorps Provision 7(e)
should be enforced.

Auditov 's Comment

The AmeriCorps Provisions stipulate that "[bly accepting funds under this Grant, the Grantee agrees
to comply with the AmeriCorps Provisions and all applicable federal statutes, regulations and
guidelines" The AmeriCorps Provisions also require all grantees "to include in all subgrants the
applicable terms and conditions contained in this award." Accordingly, the provision limiting
training time applies to RISA's subrecipients. The questioned costs remain unchanged.
                                                                                 Schedule A-3
                                                                                   Page 1 of 3
                              Rhode Island Service Alliance
                                Schedule of Award Costs
                     Corporation for National and Community Service
                              Award Number 00ASCRI041
                          August 1,2000, to September 30,2003

                              Public Education Funds (PEF)
                           Parents Making A Difference (PMAD)

                                                                                   Reference

Approved Budget (Federal Funds - 3 Years)                         $ 1.258.998      Note 1
Claimed Costs                                                     $ 1,093,710      Note 2
Questioned Costs
   Member Compliance Issues                        $   56,071                      Note 3
   Excess Training Costs                               22,2 14                     Note 4
   Excess Living Allowance Charges                      2,558                      Note 5

Total Questioned Costs                                                             Note 6
Questioned Education Awards                                                        Note 7


Notes

1. The approved budget amount represents total gross funding to Public Education Funds (PEF)
   for program years 2000-01 through 2002-03, per the budget schedules for RISA grants.
2. The claimed costs represent the amount of reported expenditures of PEF for the years tested
   (2000-0 1 through 2002-03).
3. Compliance testing of AmeriCorps member files revealed that key eligibility documentation
   for some members was missing. Since member eligibility could not be validated through
   supporting source documentation in some cases, we questioned the claimed member living
   allowances, including FICA, associated with the unsupported/ineligible members.
   Questioned costs are summarized by type of missing documentation, as follows:
                                                                                Schedule A-3
                                                                                  Page 2 of 3

      Program Year                Missing Documentation                        Amount
         2000-0 1                  Proof of Citizenship                    $     9,181
         200 1-02                  Various (Citizenship, Education,
                                       Criminal Record Check)                    27,3 12
          2002-03                  CitizenshipIResidency Status                  19,578

   Total Eligibility Amount Questioned (Includes FICA & Health Care)       $     56.071
4. ArneriCorps Special Provision 7(e) limits to 20 percent the aggregate amount of member
   service hours that can be spent on education and training activities. The PEF exceeded this
   limitation in program year 2000-01. We questioned $22,214 in members' living allowances,
   including FICA, related to this condition.
5. Costs questioned represent member living allowance payments charged to the grants that
   exceeded the Program Year(s) limit. We questioned members' living allowances, including
   FICA, related to this condition as follows:

                     Program Year                        Amount
                       2000-01                           $ 732
                       200 1-02                            869
                       2002-03                               957
              Total Costs Questioned                      $ 2.558

6. In Program Years 2000-01 and 2001-02, PEF did not claim reimbursement for administrative
   costs up to the 5 percent ceiling rate. We performed an analysis of the potential
   administrative rate that could have been applied, and found that the actual rate would have
   far exceeded both the claimed rate and the ceiling rate. Consequently, any additional
   administrative costs available were claimed as matching (or were otherwise available for
   additional claims). Therefore, we did not make an adjustment for application of the
   administrative rate to the other questioned costs for this subrecipient.
   However, in program year 2002-03, due to a variety of circumstances, PEF was apparently
   advised to claim administrative costs at budget figures. This resulted in the claimed
   administrative costs exceeding the 5 percent limitation on actual costs in the amount of
   $3,006 in that year. These costs will be identified as noncompliance issues rather than as
   questioned costs.
                                                                            Schedule A-3
                                                                              Page 3 of 3

7 . The questioned education awards represent the value of such awards for those members
    whose eligibility qualifications could not be validated from supporting documentation.
RISA 's Response

Please refer to RISA's response on Schedule A-1 .

Auditor's Comment

Please refer to our comments on RISA's response on Schedule A-1
                                                                               Schedule A-4
                                                                                 Page 1 of 2

                             Rhode Island Service Alliance
                               Schedule of Award Costs
                    Corporation for National and Community Service
                             Award Number 00ASFRI041
                          July 1,2000, to September 30,2003

                  International Gallery For Culture & Heritage (IGCH)


                                                                                 Reference
Approved Budget (Federal Funds)                                 $1.305.500        Note 1

Claimed Costs                                                   $1.095.833         Note 2

Questioned Costs
   Member Compliance Issues                       $   19,265                       Note 3
   Excess Living Allowance Charges                     1,694                       Note 4

Total Questioned Costs                                                             Note 5

Questioned Education Awards                                     $    11,317        Note 6

Notes

1. The amount shown above as approved budget represents the total gross funding to the
   International Gallery for Culture & Heritage (IGCH) for program years 2000-01 through
   2002-03, per the budget schedules for RISA grants.
2. Claimed costs represent the amount of reported expenditures of IGCH for the program years
   tested (2000-0 1 through 2002-03).
3. Compliance testing of AmeriCorps members' files revealed that key eligibility
   documentation for some members was missing. Since member eligibility could not be
   validated through supporting documentation in some cases, we questioned the claimed
   member living allowances, including FICA, associated with the unsupported/ineligible
   members. Questioned costs are summarized by type of missing documentary support, as
   follows:
                                                                                 Schedule A-4
                                                                                   Page 2 of 2

      Program Year                     Missing Documentation                 Amount
         200 1-02                           Education                    $    11,105
         2002-03                            Education                          8,160
      Total Eligibility Costs Questioned                                 $    19.265

4. Costs questioned represent member living allowance payments charged to the grants that
   exceeded the program year(s) limit. We questioned the following members' living
   allowances related to this condition:

                     Program Year                         Amount
                       200 1-02                           $ 1,506
                       200 1-03                               188

              Total Costs Questioned                      $ 1.694


5. In program years 2000-01, the claimed administrative costs exceeded the 5 percent limitation
   on actual costs in the amount of $3,049. These costs will be identified as noncompliance
   issues rather than as questioned costs.

6. The education awards amount questioned represents the value of awards for those members
   whose eligibility qualifications could not be validated with the supporting documentation
   provided.

RISA 's Response

Please refer to RISA's response to on Schedule A-1 .

Auditor's Comment

Please refer to our comments on RISA's response Schedule A-1.
                                                                                  Exhibit B

                             Rhode Island Service Alliance
                               Schedule of Award Costs
                    Corporation for National and Community Service
                          Award Number 00LCSRI040 (L&S)
                        September 1,2000, to December 31,2003


LEARN & SERVE
                                                                                Reference

Approved Budget (Federal Funds - 3 Years)                      $   705,000       Note 1

Claimed Costs                                                  $   705,000       Note 2

Questioned Costs                                               $          -      Note 3



-
Notes

1. The amount shown above as approved budget represents the total gross funding to the Learn
   & Serve (L&S) grant for the grant period, program years 2000-01 through 2002-03, per the
   budget schedules for RISA grants.
2. Claimed costs represent the amount of reported expenditures of the L&S grant for the
   program years tested (2000-01 through 2002-03).

3. A misclassification was noted during the audit.    The amount involved, however, was
   considered to be insignificant.
                                                                                   Exhibit C

                           Rhode Island Service Alliance
                             Schedule of Award Costs
                  Corporation For National and Community Service
             Award Numbers 95PDSRIA39,02PDSRIA39 and 03PTHRI001
                       January 1,2000, to December 31,2003

PROGRAM DEVELOPMENT and TRAINING (PDAT)

                                                                                  Reference
Approved Budget (Federal Funds - For the Three Year Audit Period)




Total Budget - 3 Years                                           $   315.000        Note I

Claimed Costs                                                    $   315,000        Note 2

Questioned Costs                                                 $                  Note 3


Notes

1. The amount shown above as approved budget represents the total gross funding to the
   Program Development and Training (PDAT) grant for the three-year grant period, program
   years 2000-01 through 2002-03, per the budget schedules for RISA grants.
2. Claimed costs represent the amount of reported expenditures of the PDAT grant for the
   program years tested (2000-01 through 2002-03).

3. Questioned costs resulting from misclassifications and accounting corrections were noted
   during the audit, but were considered to be insignificant.
                                                                                      Exhibit D

                              Rhode Island Service Alliance
                                 Schedule of Award Costs
                     Corporation For National and Community Service
                               Award Number OlSCSRIOOl
                          January 1,2001, to December 31,2003


ADMINISTRATIVE
                                                                                    Reference

Approved Budget (Federal Funds)                                   $   456.774         Note 1

Claimed Costs                                                     $   430,521         Note 2

Questioned Costs                                                  $                   Note 3


Notes

1. The amount shown above as approved budget represents the total gross funding to the
   administrative grant for the grant period, per the budget schedules for RISA grants.
2. Claimed costs represent the amount of reported expenditures of the administrative grant for
   the program years tested (2000-01 through 2002-03).

3. Certain misclassifications and questionable costs were noted during the audit, but were
   considered to be insignificant.
                        LEONARD G . BIRNBAUM                         AND     COMPANY, LLP
                                         CERTIFIED PUBLIC ACCOUNTANTS
                                                    WASHINGTON OFFICE
                                                   6285 FRANCONIA ROAD
                                                 ALEXANDRIA. VA 22310-2510


                                                       (703) 922-7622
                                                     FAX: (703) 922-8256
LESLIE A . LEIPER                                                                                          WASHINGTON, D.C.

LEONARD G. BIRNBAUM                                                                                     SUMMIT. NEW JERSEY

DAVID SAKOFS                                                                                        REDWOOD CITY, CALIFORNIA
CAROL A. SCHNEIDER
DORA M . CLARKE




        Office of Inspector General
        Corporation for National and Community Service


             INDEPENDENT AUDITOR'S REPORT ON COMPLIANCE AND ON INTERNAL
                         CONTROLS OVER FINANCIAL REPORTING


        We have audited the Schedules of Award Costs, as presented in Exhibits A through D, that
        summarize the claimed costs of RISA under the Corporation awards listed below, and have
        issued our report thereon, dated June 30,2004.

           Program           Award Number                      Award Period                   Audit Period
        AmeriCorps           00ASCRI04 1                    8/1/00 to 9/30/03              8/1/00 to 9/30/03
        AmeriCorps           00ASFRI04 1                    7/1/00 to 9/30/03              7/1/00 to 9/30/03
        Learn & Serve        00LCSRI040                     9/1/00 to 12131/03             9/1/00 to 12131/03
        America's Promise    99APSRI068                     10/1/00 to 12/21/01            10/1/00 to 12/21/01
        America's Promise    OlAPSRI068                     10/15/01 to 10/14/04           10115/01 to 12131/03
        Disability Funds     00DSCRI039                     1/1/01 to 12/31/03             1/1/01 to 12/31/03
        Education Awards     01EDSRI023                     1/1/03 to 12/31/03             1/1/03 to 12/31/03
        PDAT                 95PDSRIA39                     1/1/95 to 12/31/01             1/1/01 to 12/31/01
        PDAT                 02PDSRIA39                     1/1/02 to 12/31/02             1/1/02 to 12/31/02
        PDAT                 03PTHRI00 1                    1/1/03 to 12/31/03             1/1/03 to 12/31/03
        Administrative       OlSCSluA39                     1/1/01 to 12/31/03             1/1/01 to 12/31/03

        We conducted our audit in accordance with auditing standards generally accepted in the United
        States of America and Government Auditing Standards, issued by the Comptroller General of the
        United States. Those standards require that we plan and perform the audit to obtain reasonable
        assurance about whether the financial schedules are free of material misstatement.




                            MEMBERS O F THE AMERICAN INSTITUTE O F CERTIFIED PUBLIC ACCOUNTANTS
Compliance

Compliance with laws, regulations, and the provisions of the awards is the responsibility of
RISA7s management. As part of obtaining reasonable assurance about whether the financial
schedules are free of material misstatement, we performed tests of compliance with certain
provisions of laws, regulations, and the terms and conditions of the awards. However, our
objective was not to provide an opinion on overall compliance with such provisions.

Instances of noncompliance are failures to follow requirements, or violations of prohibitions,
contained in statutes, regulations, and the award provisions. However, we noted other matters
concerning compliance structures and their implementation not related to reportable conditions
that we have reported to Corporation management in a separate letter dated July 2,2004.
Compliance Findings
The results of our tests of compliance disclosed the following instances of noncompliance:

Finding No. 1

Condition

RISA did not submit Federal Cash Transactions Reports (FCTRs) on a timely basis during the
period under audit. The FCTR due dates are established by the Department of Health and
Human Services, and usually due 45 days after the end of the quarter. Our review disclosed that
4 out of 11, or 36 percent, of the sample reports tested were submitted after the due dates.
The reporting controls and procedures utilized during the three-year audit period apparently did
not suitably emphasize the significance of timely and accurate cash management.

The effect of this condition is that Federal cash accountability controls are weakened when
FCTRs are not submitted in a timely manner. To ensure funds are being spent for the grant's
purpose and in accordance with grant conditions, a timely accounting is necessary. When
accounting controls are weak, it becomes easier to circumvent established processes.

It should be noted that the current RISA Compliance Officer was hired in December 2002.
Reviews of more recent FCTR submissions show marked improvement in accuracy and
timeliness.


Recommendation

We recommend that RISA continue the efforts that resulted in its recent improvement in
submitting accurate and timely cash transactions reports. To ensure the improved process
continues when future personnel changes occur, policies, procedures and monitoring regarding
the reporting of FCTRs should be formalized in writing.
RISA 's Response

The RISA disagrees with this finding but acknowledges that 4 of 11 FCTRs sampled were, in
fact, not submitted on a timely basis.

Auditor's Comment

The finding and recommendation remain unchanged.

Findinn No. 2

Condition

The RISA financial management system was not maintained in accordance with certain
Corporation grant provisions. Specifically, PDAT grant and administrative grant transactional
details are not segregated by program year.

During the audit period, three PDAT grants were awarded. In RISA's accounting records,
PDAT transactions were all recorded to one PDAT account. When funds were exhausted in one
grant, the accountant would bill the next PDAT grant for future expenses.

Provision No. 5 of the Corporation's grant provisions, entitled "Financial Management
Provisions," requires that "[flinancial management systems must be capable of distinguishing
expenditures attributable to this Grant from expenditures not attributable to this Grant. This
system must be able to identify costs by year and by budget category and to differentiate between
direct and indirect costs or administrative costs." The RISA PDAT and administrative grants
violate this provision.

These conditions make it difficult to compare actual expenditures by programmatic year to
budget line items by programmatic year. It becomes potentially more difficult to monitor and
control costs if management is unaware of how actual expenditures compare with the annual
budget. It is also more difficult for management to determine if they are in compliance with
grant provisions. (See also Finding No. 3).

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that RISA establish a financial management system with policies, procedures
and accounting practices that enable RISA to track and support the funded and expended
amounts by grant, program year, and budget line item.

RISA 's Response

The RISA disagrees with this finding.
                                                28
Auditor's Comment

In its response, RISA did not address the substance of the finding (i.e., that it charged costs
associated with the PDAT program to a single account and then assigned the costs to grants
based on the availability of funds). Since RISA has not presented evidence to refute the
substance of the finding, this finding remains unchanged.

Finding No. 3

Condition

Non-allocable costs were charged to the PDAT grant. The review of PDAT's other direct costs
revealed various questioned costs that were not allocable to PDAT grants, including some
personal items inadvertently charged to the RISA credit card and a book purchase for the Learn
& Serve program.

In order for costs to be reimbursable under Corporation grants, the charges must be allowable,
allocable and reasonable, and in accordance with grant terms, conditions and governing
provisions and regulations.

In addition, RISA's accounting system, as implemented, is not in accordance with Corporation
grant provisions. Costs were not segregated by PDAT grant in RISA accounting records. This is
not in accordance with Corporation Grant Provision No. 5, "Financial Management," which
states, "[flinancial management systems must be capable of distinguishing expenditures
attributable to this Grant from expenditures not attributable to this Grant." (See also Finding 2).

The effect of this condition is that unallowable and non-allocable costs were charged to the
PDAT grant.

This finding is also considered to be an internal control weakness.

Recommendation

We recommend that RISA establish financial and accounting controls that would preclude
charging non-allocable costs to Corporation grants.

RISA 's Response

The RISA disagrees with the characterization of this finding as contributing to a collective
material noncompliance and internal control weakness, but does not dispute the facts at issue.

Auditor's Comment

Since RISA does not dispute the basic facts supporting the finding and recommendation, they
remain unchanged.
Finding No. 4

Condition

The RISA timekeeping system is not maintained in accordance with OMB Circular A-122. It
appears that at least some RISA time sheets are being prepared based on the budget rather than
on actual work experience. In addition, we found time sheets where the charges were not
reflected in the accounting records. An employee charged the administrative grant on the time
sheet, but a portion of the administrative charges were instead charged to the disability grant. It
appears as if the accounting for time is being controlled by the budget rather than the actual time
spent on each Corporation grant. The RISA management indicated they are evaluating the
possibility of using time certifications if the Corporation will approve this method. Time
certifications are a substitute system whereby the certification shows the ratio of time spent on
each grant over several months. Since RISA is registered as a nonprofit organization, we have
evaluated the time sheet issue under the cost principles for nonprofits, OMB Circular A-122.
This Circular permits the use of a substitute system if approved, in writing, by the Corporation.

OMB Circular A-122, Cost Principles for Non-Profit Organizations, Attachment B, states in part:

   m. Support of salaries and wages.

    (1) Charges to awards for salaries and wages, whether treated as direct costs or indirect
    costs, will be based on documented payrolls approved by a responsible official(s) of the
    organization. The distribution of salaries and wages to awards must be supported by
    personnel activity reports, as prescribed in subparagraph (2), except when a substitute
    system has been approved in writing by the cognizant agency. (See subparagraph E.2
    of Attachment A.) (emphasis added)

    (2) Reports reflecting the distribution of activity of each employee must be maintained
    for all staff members (professionals and nonprofessionals) whose compensation is
    charged, in whole or in part, directly to awards. In addition, in order to support the
    allocation of indirect costs, such reports must also be maintained for other employees
    whose work involves two or more functions or activities if a distribution of their
    compensation between such functions or activities is needed in the determination of the
    organization's indirect cost rate(s) (e.g., an employee engaged part-time in indirect cost
    activities and part-time in a direct function). Reports maintained by non-profit
    organizations to satisfy these requirements must meet the following standards:

    (a) The reports must reflect an after-the-fact determination of the actual activity of
        each employee. Budget estimates (i.e., estimates determined before the services
        are performed) do not qualify as support for charges to awards. (emphasis added)
   (b) Each report must account for the total activity for which employees are compensated
   and which is required in fulfillment of their obligations to the organization.

   (c) The reports must be signed by the individual employee, or by a responsible
   supervisory official having first hand knowledge of the activities performed by the
   employee, that the distribution of activity represents a reasonable estimate of the actual
   work performed by the employee during the periods covered by the reports.

   (d) The reports must be prepared at least monthly and must coincide with one or more
   pay periods.

The effect of this condition is that recorded time charges may not reflect actual effort expended
against final cost objectives (grants). Therefore, such charges may be inaccurate and appropriate
for reporting use in grant claims.

Recommendation

We recommend that RISA revise, or otherwise supplement, its current timekeeping practices to
provide for an accurate recording of employees' actual time spent on final cost objectives. The
RISA should continue to evaluate the possibility of using time certifications, or a substitute
method, if the Corporation will approve this method.

RISA 's Response

The RISA disagrees with the finding that its timekeeping system does not comply with OMB
Circular A-122. The RISA maintains that its "employees record actual time worked for the time
reporting period on their timesheets. On the timesheets, employees allocate time worked to cost
objectives based on time studies (periodic testing of actual work performed by employees) that
are periodically reviewed and incorporated into budget projections." The RISA adds,
"employees are aware of the allocation and the Executive Director reviews the time allocations
in accordance with OMB Circular A-122, Attachment B, 5 7(m)(2)(a) (Support of Salaries &
Wages (c) states that time sheets must be signed by a responsible supervisory official having first
hand knowledge of the activities performed by the employee, that the distribution of activity
represents a reasonable estimate of the actual work performed by the employee during the
periods covered by the time sheet."

Auditor's Comment

The RISA's response does not address the basic issue that charges on time sheets were different
from the corresponding charges in its accounting records. We do not agree that RISA's
timekeeping system is in compliance with OMB Circular A-122. The use of time studies
(periodic testing of actual work performed by employees) does not meet the requirement for an
"after-the-fact determination of the actual activity of each employee." (OMB Circular A-122,
Attachment B, 5 7(m)(2)(a)). Accordingly, the finding and recommendation remain unchanged.
Finding No. 5

Condition

Grant-authorized living allowance payments to AmeriCorps members were exceeded by the
following subrecipients, in the amounts indicated:

      City Year, Inc.                                            $      412
      Public Education Funds                                          2,558
      International Gallery For Heritage & Culture                    1,694

     Total

Although the above subrecipients cited a number of reasons for overpayments, the most common
cause cited was that the members continued on the payroll beyond the time when the living
allowance ceiling had been met. While the subrecipient may feel responsible for compensating a
member if helshe remains on the payroll, the reimbursement of member living allowances on
Corporation grants is limited to the ceiling amount of the living allowance as indicated in the
member contract and the grant budget.

This condition causes overcharges to the subrecipients' grants in the amounts shown above.

Recommendation

We recommend that RISA establish oversight policies and procedures to ensure that its
subrecipients comply with ceiling limitations for living allowances paid to AmeriCorps
members.

RISA 's Response

The RISA disagrees with this finding. The RISA asserts that these costs are allowable because
(1) the living allowances paid did not exceed the AmeriCorps limitation on living allowances, (2)
members were still in service andlor had a longer length of service than their peers, (3) member
service occurred within the allowable 12-month window, (4) subgrantee living allowance
budgets were not exceeded, and (5) subrecipients appropriately met all other criteria including
match requirements for living allowances.

Auditor's Comment

Grant provisions stipulate the maximum amount that may be paid for living allowances with
Federal Funds. The RISA exceeded this stipulated amount If circumstances indicate that the
member(s) should be paid more than the stipulated amount in their contracts, the contracts
should be amended and the Corporation should be notified of the change in the living allowance
levels. The finding and recommendation remain unchanged.
Finding No. 6

Condition
Some subrecipients incurred and claimed more than 20 percent of member service hours for
training. AmeriCorps Provision (7)(e) states, "[n] o more than 20 percent of the aggregate of all
member service hours in a Program may be spent in education, training or other non-direct
activities."
This training ceiling limitation was exceeded in various program years by the following
subrecipients:
       City Year, Inc                                       $       28,072
       Public Education Funds                               $       22,214
       Children's Crusade For Higher Education              $        5,883
              Total                                         $       56,169

The RISA and its subrecipients cited various mitigating reasons for exceeding the ceiling. The
Corporation should consider these reasons in resolving the issue. However, from an audit
standpoint, the above subrecipients were in noncompliance with AmeriCorps Provision (7)(e).
This condition caused an overcharging of training costs to the three subrecipients' grants totaling
$56,169.

Recommendation

We recommend that RISA establish oversight policies and procedures to ensure that its
subrecipients comply with ceiling limitations for training hours charged to grants.

RISA 's Response

The RISA acknowledges that some subrecipients exceeded the 20 percent limitation, but asserts
that the aggregate AmeriCorps program training hours, for all subrecipients, were within the
limit. The RISA does not believe that the audit's "restrictive interpretation" of the grant
provision should be enforced.

Auditor's Comment

We interpret the AmeriCorps Provision to apply to each subrecipient. Accordingly, no single
subrecipient may claim more than 20 percent of member service hours for training. Furthermore,
the AmeriCorps Provisions stipulate that "[bly accepting funds under this Grant, the Grantee
agrees to comply with the AmeriCorps Provisions and all applicable Federal statutes, regulations
and guidelines," and "[tlhe grantee agrees to include in all subgrants the applicable terms and
conditions contained in this award." Thus, the provision limiting training time applies to RISA's
subrecipients. The finding and recommendation remain unchanged.
Finding No.7

Condition

The International Gallery for Heritage & Culture (IGHC) is not in compliance with AmeriCorps
provisions regarding in-kind contribution financial records. The AmeriCorps Provision on
financial management states:

       The Grantee must maintain adequate supporting documents for its expenditures
       (federal and non-federal) and in-kind contributions made under this Grant. Costs
       must be shown in books or records [e.g., a disbursement ledger or journal], and
       must be supported by a source document, such as a receipt, travel voucher,
       invoice, bill, in-kind voucher, or similar document.

For the program years included in this audit, the IGHC accountant calculated 1112'~of the
budgeted in-kind match, plus other actual in-kind contributions, and inserted the resulting figure
in funding requests and grant financial reports (FSRs and PERs). Recordkeeping, including
requests to contributors for documentation and organization of incoming documentation, was
haphazard at best. The IGHC's Director recognizes that this is an area that must be improved.

As a result of this procedure, we took an analytical approach to ensure the required match of 33
percent was met for AmeriCorps budget categories B through F. The cash match, 15 percent, for
members living allowance was verified using payroll records. Using cash match and the
available in-kind documentation, we were able to determine that the required match for
categories B through F was met.

Recommendation

We recommend that RISA follow up to ensure that the IGHC accounting process is corrected.
We also suggest that RISA monitor this area in the future and consider furnishing additional
guidance to its subrecipients.

RISA 's Response

The RISA has agreed to follow up to ensure that the situation at IGHC is corrected, will continue
to monitor this area in its annual site visits, and will include additional coverage in its annual
subgrantee fiscal training sessions.

Auditor's Comment

We consider this response to be adequate.
Finding No. 8

Condition

During the periods under audit, the following subrecipients did not maintain, in some members'
files, certain required AmeriCorps member eligibility documentation (e.g., proof of citizenship,
age, high school diploma or equivalency certificate, criminal record checks as required, and a
signed contract):

                              City Year, Inc.

                              Public Education Fund

                              International Gallery For Heritage and Culture

Despite RISA's review of member files and emphasis during subrecipient training, some RISA
subrecipients may not have fully understood the importance of maintaining complete member
files. It should be noted that the current RISA Compliance Officer is actively reviewing these
documentation requirements during site visits to subrecipients.

The ArneriCorps provision on member eligibility, recruitment, and selection, requires that the
grantee maintain verifiable records that document each member's eligibility to serve. These
programmatic records must be maintained for three years from the submission date of the final
FSR.

Without complete member files, RISA cannot verify that member eligibility requirements are
being met. In order to ensure that grant funds are used for the purposes intended, it is important
to make certain that only qualified members are allowed to serve.

The effect of this condition is that we questioned the living allowances and related benefits of
$84,488 for those AmeriCorps members whose eligibility documentation was missing. We also
questioned corresponding education awards for those members in the amount of $32,580.

Recommendation

We recommend that RISA continue to aggressively follow up on these member documentation
requirements and continue providing formal guidance on records management and retention to
its subrecipients.

RISA 's Response

The RISA states that the audit confirmed its own findings and that it requires subgrantees to
eliminate ineligible costs from final claims at or prior to closeout, at which time final FSRs will
be corrected and refund checks issued to the Corporation with final closeout documents.
Auditor's Comment

We consider this response to be adequate.

Finding No. 9

Condition

Two subrecipients exceeded the mandated ceiling of 5 percent on administrative costs chargeable
to grants. AmeriCorps Provision (23)(b) states that administrative costs cannot exceed 5 percent
of total Corporation funds actually expended under the award. The effect of this condition is that
the following subrecipients exceeded this ceiling in the amounts indicated:

       Public Education Funds                               $ 3,006
       International Gallery For Heritage and Culture       $3,049
               Total                                        $ 6.055

The Office of Inspector General Full Scope Audit Program states:

       If the limit is exceeded, include this as a compliance finding in the audit report.
       The cost is not necessarily questioned because: a) some costs may be allowed
       during audit resolution, and b) the administrative cost limit must be calculated at
       the grant level (not by each subrecipient).

Accordingly, we did not question these costs but instead are treating this finding as a
noncompliance issue.

The RISA indicated that there may be mitigating circumstances that caused these imbalances.
However, our audit position reflects the provision requirements as stated.

Recommendation

We recommend that RISA include administrative cost limits as an area of emphasis during its
monitoring visits of subrecipients.

RISA 's Response

The RISA presents two positions on this issue. First, it observes that the Corporation waived this
requirement during the program year 2002-2003 because of the freeze on AmeriColps
enrollment. Second, it notes that, at the grant level, administrative costs were below the five
percent ceiling.
Auditor's Comment

We consider this response to be adequate.

Finding No. 10

Condition

There were a variety of miscellaneous noncompliance documentation issues related to our review
of member files at the subrecipients audited. The issues covered subject areas such as content of
member contracts, supervision, member evaluations (mid-term and end-of-term), code of
conduct, and timeliness of submissions of required forms (enrollment and exit). The results were
sporadic by subrecipient in terms of documentation shortfalls. The subrecipient documentation
issues are in addition to the noncompliance issues discussed previously regarding member
eligibility.

We provided each subrecipient with the summary schedules of our compliance results during the
exit briefings at each location. The RISA representatives were also provided with copies of these
schedules, or were otherwise advised of our conclusions.

Recommendation

We recommend that RISA utilize these compliance results schedules for follow-up reviews
during its future monitoring visits of these subrecipients.

RISA 's Response

The RISA asserts that all subgrantees have systems in place that are fully consistent with all
Federal and State grant provisions. The RISA argues that the fact that some required documents
were missing from the files of several members does not mean that these systems are inadequate.

Auditor's Comment

The documentation identified by this audit refute RISA's assertion that these systems are
adequate. The finding and recommendation remain unchanged.

Finding No. 1 1

Condition

During our review of AmeriCorps member files, we noted that several individuals were pursuing
GED accreditation or other courses, and that this training time was included in the service hours
reported by the members. Based on ArneriCorps Provisions (7)(c) and (7)(h), training offered to
members should relate directly to the program's objectives in the community, not to the
member's personal training needs or desires. Provision (7)(h) mandates a support system for
members to obtain a GED or higher education including counseling members on GED courses or
the college application process, but it bars the use of service time to be used for such training.
We have not quantified this condition as questioned costs since some of the living allowances of
individuals involved have already been questioned for other eligibility reasons. However, based
on discussions with the OIG, we have been advised to report this practice as a noncompliance
issue.

The RISA does not agree that GED training should be disallowed. In fact, RISA encourages
subrecipients to use AmeriCorps training for GED purposes. The RISA officials also stated that
some members have children at home, and after serving their ArneriCorps commitment, may not
have the time to pursue a GED. The RISA management believes that the allowability of college
course time depends on its relationship with AmeriCorps service objectives.

Recommendation

We recommend that RISA limit the reportable member training time to service directly
associated with the grant program. The RISA should exclude GED training or other outside
courses from the reportable service hours of members. We also recommend that the Corporation
provide some clarifying guidance to its grantees on this issue.

RISA 's Response

The RISA disagrees with this finding asserting that AmeriCorps Provision 7(b) mandates a
support system for members to obtain a GED Certificate or higher education, including
counseling members on GED courses. However, the RISA notes that the AmeriCorps Provisions
"bar the use of service time to be used for such training."

Auditor's Comment

The RISA has not addressed the issue of individuals pursuing GED accreditation or other
courses, while including such time as service hours. Further, we are not persuaded that "a
support system for members to obtain a GED" or "counseling members on GED courses"
constitutes authorization for members to use service hours to pursue GED accreditation or other
courses. Accordingly, the finding and recommendation remain unchanged.


Internal Controls Over Financial Reporting

In planning and performing our audit of awards costs as presented in Exhibits A through D for
the period July 1, 2000, to December 3 1, 2003, we considered RISA's internal controls in order
to determine our auditing procedures for the purpose of expressing our opinion on the financial
schedules and not to provide assurance on the internal controls over financial reporting.
The RISA management is responsible for establishing and maintaining internal controls. In
fulfilling this responsibility, estimates and judgments by management are required to assess the
expected benefits and related costs on internal control policies and procedures. The objective of
internal controls is to provide management with reasonable, but not absolute, assurance that
assets are safeguarded against loss from unauthorized use or disposition. Internal controls also
help ensure transactions are executed in accordance with management's authorization and
recorded properly to permit the preparation of the financial schedules in accordance with
generally accepted accounting principles of the United States of America. Because of inherent
limitations in any internal controls, errors or irregularities may nevertheless occur and not be
detected. Also, projection of any evaluation of the internal controls to future periods is subject to
the risk that procedures may become inadequate because of changes in conditions or that the
effectiveness of the design and operation of policies and procedures may deteriorate.

Our consideration of internal controls would not necessarily disclose all matters of internal
control over financial reporting that might be reportable conditions. Under standards established
by the American Institute of Certified Public Accountants, reportable conditions involve matters
coming to our attention relating to significant deficiencies in the design or operation of the
internal controls, that, in our judgment, could adversely affect the entity's ability to record,
possess, summarize and report financial data consistent with the assertions of management in the
financial schedules. Material weaknesses are reportable conditions in which the design or
operation of one or more of the internal control components does not reduce to a relatively low
level the risk that errors or irregularities in amounts, which would be material in relation to the
financial schedules being audited, may occur and not be detected within a timely period by
employees in the normal course of performing their assigned functions.

Internal Control Findings

We noted the following matter that we consider to be material weaknesses:

Finding No. 12

Condition

The RISA financial management system does not have an adequate disasterhackup plan. The
"One-Write" checkinglrecord-keeping system utilized by RISA maintains, in one binder,
transactional entries for all disbursements, for all years, and for all grants. The sheets and entries
are manually posted by month, and retained in the same binder. The outside CPA who provides
the monthly write-ups for the financial reports has summary records for the general ledger, but it
does not appear that copies of the supporting documentation exist. There is no other backup or
disaster plan or process.

In the event of a catastrophe, RISA's transaction documentation would be lost permanently. We
believe this constitutes an internal control deficiency.
Recommendation

We recommend that RISA establish plans, policies and procedures for backup and recovery of
accounting records in the event of a natural catastrophe (fire, flood, loss, etc.). We also
recommend that RISA explore the feasibility (e.g., perform a costbenefit analysis) of upgrading
its current manual system to an automated process.

RISA 's Response

The RISA disagrees with this finding, asserting that while it does not have a formal written
disaster plan, it has made backup provisions in the event of a disaster and has an adequate
protocol in place. The RISA stated that it will formalize its current practices in writing and
provide documentation of its established procedures.

Auditor's Comment

W e consider this response to be adequate.


Finding Nos. 1 through 7, and No. 9, as set forth in the compliance section of the report, are also
considered findings on internal control.




Leonard G. Birnbaum and Company, ~ L \P
Alexandria, Virginia
June 30,2004
                        Follow-up On Pre-Audit Survey Findings
               OIG Audit Report No. 00-27, Pre-Award Survey Report of the
                             Rhode Island Service Alliance

The Pre-Audit Survey was performed by Urbach Kahn & Werlin, PC. The Pre-Audit Survey
Report was issued to Corporation management on June 23, 2000. Since considerable time has
elapsed since the issuance of the report, there have been various changes and actions taken by
RISA to address the conditions and findings cited.

A summary of the current status of the Pre-Audit Survey findings is as follows:
                                       FINDINGS &
   CATEGORY                         RECOMMENDATIONS                               STATUS / DISPOSITION
ADMINISTRATION OF             The pre-audit survey found no evidence to        One error was found on an FSR in 1998
  GRANT FUNDS                 document review of subgrantee FSRs and           (transposition) and corrected in the next
                              matching recalculations prior to 1999. The       FSR. This error is considered
                              pre-auds survey recommended that RISA            immaterial. The RISA has developed
                              implement new procedures to review               and implemented the use of a checklist.
                              subgrantees' FSRs, recalculate matching          This procedure is now considered
                              requirements, and document results of such       effective.
                              reviews.

                              The pre-audit survey found that cash basis          This finding apparently was not
                              reporting for Learn & Serve subgrantees             discussed at the exit conference. The
                              does not appear to conform to ~ b r ~ o r a t i o n RISA disagrees with the conclusion.
                              requirements.                                       We evaluated Learn & Serve reporting
                                                                                  during the full-scope audit and now find
                                                                                  general compliance with Corporation
                                                                                  requirements.


This report is intended for the information and use of the Office of Inspector General, as well as
the management of the Corporation, RISA and its subrecipients, and the U.S. Congress.
However, this report is a matter of public record and its distribution is not limited.
                Appendix A


Response of the Rhode Island Service Alliance
           September 9,2004
                                                                                                           RtlODF ISLAND 5TRVICF A11 IANCF
           Carol Bates
           Acting Assistant Inspector General for Audit
           Corporation for National and Community Service
           Office of Inspector General
           120 1 New York Avenue, NW
           Suite 830
           Washington, DC 20525

           Dear Ms. Bates:

           Attached please find the Rhode Island Service Alliance's (RISA) response to OIG Audit
           Report Number 04-22 dated July 22, 2004. Subgrantees' comments are included in
           Attachments 1-4.

           As you know, RISA and its subgrantees have worked cooperatively with the CNCS IG
           auditors over the course of the ten months of audit fieldwork and have continually
           demonstrated responsiveness to requests for information and feedback since audit
           inception.

           Similarly, we are prepared to work cooperatively with the CNCS Audit Resolution
           Specialist over the corning months to resolve any disagreements we have with the audit
           findings, to provide additional documentation for consideration, and to implement
           corrective action as appropriate. In fact, we are already aware of additional
           documentation available from two of our subgrantees (The Education Partnership and the
           International Gallery for Heritage & Culture) that should reduce questioned costs related
           to member compliance issues by 50% ($42,141 - before considering related education
           awards).

           As explained in our audit response, we respectfully and strongly disagree with the audit
           findings and recommendations. At present, the report lacks objectivity. Government
           auditing standards require that the entire audit report be balanced in content, that it should
           not be misleading and that it should place the audit results in perspective. We do not
           believe the audit report is balanced in content, in certain sections the audit report is
           misleading, and audit findings are not placed in appropriate context. Additionally, the
           audit report does not recognize any positive aspects of the programs under audit, of
           which there are many; recognizing such positive aspects was directly applicable to audit
           objectives. We also do not believe that our feedback to date has been fully considered by
           the auditors.

             In summary:

                  1. The auditors consider that the late filing of 4 of 11 Federal Cash Transactions
                     Reports contributes to a collectively material noncompliance and internal control
                     finding. The auditors disregard extenuating circumstances related to t&e late


                                                                                                                               TRANSFORMING
P 0 BOX   72822   PROVIDENCE, R H O D E I S L A N D 02907   T 401 331 2298   F   401 331 2273   WWW RISERVlCEALLIANCE.ORG      INNOVATIVE SERVICE
                                                                                                                               IDEAS I N T O A C T I O N
   filing of 3 of the 4 reports (technical glitches in the on-line reporting system),
   RISA's historical track record for timely reporting, and our overall internal
   controls over cash management. All of this information should be taken into
   consideration.

2. The auditors assert that RISA's Financial Management System was not
   maintained in accordance with grant provisions and this contributes to a
   collectively material noncompliance and internal control finding. The auditors
   ignore the fact that (a) our current system and memorandum records allow us to
   segregate transactions by time period, (b) RISA conducts a detailed review of
   transactions before filing Financial Status Reports to ensure expenditures are
   charged to the correct grant, (c) our existing system is entirely appropriate for the
   size and scope of our organization, and (d) our current system is in complete
   compliance with grant provisions and fully supported by favorable A- 133 audit
   opinions, favorable Pre-Audit Surveys and Standards Visits, and a total lack of
   material noncompliance findings and questioned costs attributable to the use of
   this system during the audit.

3. The auditors assert that non-allocable costs were charged to the PDAT grant and
   that this contributes to a collectively material noncompliance finding and a
   collectively material internal control weakness. The auditor disregards the fact
   that this finding is immaterial representing less than .2% ($715/$3 15,000) of
   claimed PDAT costs and that the immaterial misposting error has since been
   corrected.

3. The auditors assert the RISA timekeeping system is not maintained in accordance
   with OMB Circular A- 122 and that this contributes to a material noncompliance
   and internal control weakness. We disagree with the audit assertion: our current
   system is adequate, accurate, and results in a "reasonable distribution of the actual
   work performed" in accordance with OMB Circular A-122 m (Support of Salaries
   & Wages [c]). Not insignificantly, favorable A-133 audits, standards visits and
   Pre-Audit Surveys also support our system.

   Please note that in order to be responsive to OIG audit recommendations, we have
   (a) proposed supplementing our procedures with a Level of Effort Certification
   for all employees, and (b) requested formal CNCS approval for this practice in an
   email dated August 5,2004. We expect to receive formal CNCS approval during
   the audit resolution process.

5. The audit report asserts that some subrecipients were paid living allowances in
   excess of authorized amounts and that this contributes to a "collectively material
   noncompliance" and "internal control weakness." We disagree with the auditors'
   interpretation that grant-authorized living allowances were exceeded and that this
   contributes to a collectively material noncompliance and internal control
   weakness.



                                                                                        TRANSFORMING
                                                                                        INNOVATIVE SERVICE
                                                                                        IDEAS I N T O ACTION
   The auditors disregard the fact that the questioned amount is immaterial
   (representing .07% of total AmeriCorps Funds claimed--$4,664/$6,449,155)        and
   also allowable as (a) the stipends paid did not exceed the AmeriCorps cap or
   limitation on stipends, (b) members were still in service and/or had a longer
   length of service than their peers, (c) member service occurred within the
   allowable 12-month window, (d) sub-grantee stipend budgets were not exceeded,
   and (e) the subrecipients appropriately met all other criteria, including match
   requirements for stipends.

6. The audit report notes that some subgrantees incurred and claimed more than 20
   percent of member service hours for training but does not consider mitigating
   circumstances for the excess hours. The auditors assert that this finding
   contributes to a material noncompliance and internal control weakness; we
   disagree with this assessment.

   While we acknowledge that some subrecipients exceeded the 20% ceiling limit
   for training individually, in aggregate, AmeriCorps Program training hours were
   within the ceiling limit with 19.77% of training to total service hours (1668 13.66
   1843941.80) for the period under review. On balance, we believe our programs are
   doing their best to prepare members for service and to recruit a diverse corps
   without adversely impacting quality service delivery or compromising service
   hours. In practice, the training hour limit is difficult if not impossible for
   programs or RISA to monitor in a meaningful way; please see our audit response
   for a detailed explanation. We will also forward our comments to CNCS for
   consideration in the rulemaking process.

7. The audit report asserts that one subrecipient is not in compliance with
   AmeriCorps provisions regarding in-kind contribution financial records and this
   contributes to a collectively material noncompliance and internal control
   weakness.

   While this one sub-recipient made technical errors in reporting match in its
   official books and records, it did not result in a "collectively material
   noncompliance and internal control weakness." In this case, the sub-grantee
   provided source documentation to the auditors confirming that the match on the
   grant was actually met. While we think the sub-grantee should take corrective
   action, this does not constitute a "collectively material weakness," since there is
   no resulting cost questioned and compensating controls are clearly in place. The
   auditors disregard this information.

8. Missing documentation for certain aspects of member eligibility (Citizenship and
   Education) should not result in a finding of a "collectively material"
   noncompliance. While it is true that some sub-grantees did not maintain adequate
   documentation for member eligibility in a small number of memberfiles, the
   report overstates the issue by classifying this as contributing to a material
   noncompliance.


                                                                                   TRANSFORMING
                                                                                   INNOVATIVE SERVICE
                                                                                   IDEAS I N T O A C T I O N
   Furthermore, all costs questioned relating to citizenship eligibility (the majority of
   questioned costs) were already evidenced in our site visit reports and continue to
   be actively monitored and pursued; the audit only confirmed our own findings.
   The Service Alliance did not fail to act: the audit occurred while the monitoring
   process was still in progress and on track to successful completion. As planned,
   eligibility issues remaining at the time of closeout will be backed out of the sub-
   grantees' final claims, corrected on the final FSRs, and refund checks will be
   issued to CNCS with final closeout documents.

9. The report asserts that two subrecipients exceeded the mandated AmeriCorps
   provisional ceiling of 5 percent on administrative costs chargeable to grants
   resulting in a "collectively material noncompliance" and internal control
   weakness.

   Not only is the amount described immaterial (representing .09% of total
   AmeriCorps Funds claimed--$6,055/$6,449,155),      half of the amount cited as a
   noncompliance was in fact authorized and in accordance with CNCS guidelines.
   The remaining amount in question was the result of a bookkeeping error in a
   subrecipient's accounting system. This error, which would have been detected
   following routine review of the program's final drawdown request, has since been
   corrected. The auditors disregard the above facts.

10. We disagree with the opinion that the finding "some AmeriCorps member files
   were missing required documentation" can be interpreted as contributing to a
   "collectively material noncompliance." The report does not provide appropriate
   perspective on the significance of the reported finding. Government Auditing
   Standards (8.41) specify that "Giving report users an adequate and correct
   understanding means providing perspective on the extent and significance of
   reported findings, such as the frequency of occurrence relative to the number of
   cases or transactions tested.. ." Such information is clearly missing from the audit
   report. All subgrantees funded by the Service Alliance have systems in place that
   are fully consistent with all federal and state grant provisions. During on-site
   visits conducted by the Service Alliance staff, we monitor subgrantees' use of the
   established systems by reviewing member files individually and assessing the
   overall condition of subgrantees' files.

   Combined, the 4 AmeriCorps subgrantees audited maintained more than 40,000
   pages of documentation for the period under review. The fact that some required
   documents were missing from the files of several members does not mean that the
   systems that our subrecipients have in place are not adequate or contribute to a
   collectively material weakness. Moreover, the fact that most member files had all
   required documentation suggests not only that existing systems are adequate, but
   also that the Service Alliance is successful in ensuring that these systems are used
   consistently.




                                                                                   TRANSFORMING
                                                                                   INNOVATIVE SERVICE
                                                                                   IDEAS INTO ACTION
1 1. During the review of AmeriCorps member files, the auditors noted that several
   individuals were pursuing GED accreditation and that this training time was
   included in the service hours reported by members. The auditor believes GED
   training should be disallowed as it is somehow prohibited by grant provisions and
   only personally beneficial to the member. The auditors assert that this finding
   contributes to a collectively material noncompliance.

   We strongly disagree with the audit finding and continue to find the language
   used to describe the finding confusing and misleading. The auditor inaccurately
   implies that member service time was used for GED training when in fact
   member training time was appropriately used for GED training. The audit
   misstates and misinterprets the cited grant provisions to argue for disallowance of
   GED training time as they consider it unrelated to program objectives and believe
   GED training is provided only to meet a member's personal training needs and
   desires.

   The grant provisions cited by the auditor (and provided in full text in our
   response) do not support the audit conclusions. The provisions do not state that
   training should only benefit the program and not benefit the member. The
   provision does not bar the use of GED time as training time. This longstanding
   practice in Rhode Island has been fully and traditionally authorized by CNCS and
   not barred by AmeriCorps grant provisions as asserted in the audit.

   A member's pursuit of a GED absolutely relates directly to the program's
   objectives in the community. National and Community Service funding in the
   state of Rhode Island is exclusively earmarked for education-related programs.
   Members largely work with children in school and in after-school settings
   implementing tutoring, literacy, stay-in-school, homework clubs, and other
   similar programs. It is absurd to imply that this training is simply to meet a
   member's personal training needs and desires. Programs train members so they
   will be prepared to deliver impactful services to the community and also be
   prepared for success in their own lives. The training questioned by the auditors is
   dictated by AmeriCorps requirements and program, partner agency, and service
   recipient needs. Therefore, the GED training is entirely appropriate, and in no
   way contributes to a collectively material noncompliance.

12. The audit report is inaccurate in its assertion that "RISA's Financial Management
    System does not have an adequate disasterlback-up plan" and that this finding
    results in an internal control weakness.

   Although RISA does not have a formal written disaster plan, we have made
   provisions for an accounting disaster and have an adequate protocol in place.
   Therefore, our current practice does not contribute to a collectively material
   noncompliance. Copies of the cash disbursement journal, cash receipts journals,
   general journal and ledger are kept off premises in our CPA's office. The bank
   stores copies of our checks. Finally, a computer back up disc is burned bi-weekly


                                                                                 TRANSFORMING
                                                                                 I N N O V A T I V E SERVICE
                                                                                 IDEAS I N T O A C T I O N
       and kept in a fireproof safe off-site. We will commit our current practice to
       writing to provide documentation of our established procedures.


We look forward to receiving a copy of the final audit report that will incorporate our
responses and provide meaningful feedback regarding the auditors' consideration of our
response.

Respectfully,


yum,\-<&.%.&I.&=I
Leo A. Beliveau 111
                                            -

Chair
Rhode Island Service Alliance




                                                                                       TRANSFORMING
                                                                                       INNOVATIVE SERVICE
                                                                                       IDEAS I N T O ACTION
                   Rhode Island Service Alliance
                  and Subgrantee Responses to the

            CNCS Office of Inspector General's (OIG)
              Draft Report of Audit Findings for
              The Rhode Island Service Alliance

     OIG Audit Report Number 04-22, dated July 22,2004

Introduction
The following comments were prepared in response to the CNCS Office of
Inspector General's draft report of audit findings for the Rhode Island
Service Alliance (OIG Report Number 04-22), dated July 22,2004.

It is important to note that the Rhode Island Service Alliance (RISA) was not
informed about the characterization of audit findings, i.e. the audit opinion,
until the July 14,2004 exit briefing. During the exit briefing we were
informed of 13 material audit findings related to instances of noncompliance
and internal control weaknesses. During the ten-month audit process, we
were never informed of the audit opinion and not given appropriate time to
respond to this characterization of audit findings (we were given 2-3 days to
respond to the material findings of noncompliance and internal control
weaknesses).

Additionally, during the exit briefing, we were informed by the partner-in-
charge of the audit that there would be no "substantive" changes to the
"preliminary" draft audit report and no "issue" changes would be considered
-just changes to "form." He suggested that since we had been so
cooperative during the audit process, there was little we could add at this
point to what the auditors already know.

In response to the surprising audit opinion findings contained in the
"preliminary" draft report provided to us during the July 14,2004 audit exit
briefing, and the statements made by the partner regarding the "preliminary"
draft audit report, we contacted the Inspector General's office, providing
them both verbal and written comments citing our objections to the audit
findings and to the final stages of the process.

We provided timely verbal and written responses to the Inspector General on
July 15 and 16,2004. Our written response included 8 pages of comments
citing objections to the audit findings, including factual errors, as well as a
cover letter that outlined our concerns regarding this process. It is important
to note that the process surrounding the issuance of the draft audit report was
not representative of the cooperation and communication extended by RISA
and the auditors during the 10 months of audit fieldwork. While we do not
know the exact cause of the breakdown in communication, we suspect it
relates to time pressure to issue the audit report.

The majority of our comments cited below were provided to the Office of
Inspector General for consideration in informing the final draft of the audit
report. We believe that our feedback was not fully considered before
issuance of the Final Draft audit report on July 22,2004. The report was
issued 4 business days after our written response date. We were informed at
the exit briefing that it takes 1 week for internal routing of the audit report
before we would receive the final draft. Given the situation, the course of
the 10-month audit, and the serious nature of our objections, we were
surprised at speed in which the "preliminary" report was finalized and issued
and to what little consideration was given to our audit response.

As a result of these conditions, we are forced to address issues in our
response to the draft audit report that should have been raised and resolved
long before the IG's audit fieldwork concluded. This draft audit report
artificially gives weight to "audit findings" which are indeed not "audit
findings" at all. As it is currently presented, we strongly believe that the
audit report is not objective. As supported by our responses to audit findings
and comments on the audit report presentation, the report is clearly not
balanced in content, in certain sections the audit report is misleading, and
audit findings are not placed in appropriate context. Additionally, the audit
report does not recognize any positive aspects of the programs under audit,
of which there are many; recognizing such positive aspects was directly
applicable to audit objectives. Also, since our feedback has not been fully
considered in this expedited process, we have no confidence that it will be
considered at all. In any case, our responses are, once again, included
below.
Overview
The draft audit report lists 11 compliance findings that "are collectively
considered to be material weaknesses" and of which "findings No. 1 through
7 and finding 9" are also considered findings on internal control. The draft
audit report lists a 12" finding which is considered a finding on internal
control.

In response to our request to the IG for clarification of the draft audit
opinion findings, we were notified by the IG's Office that the auditors will
revise the draft audit report to reflect that (1) these noncompliance findings
are collectively considered a material noncompliance finding and (2) audit
findings regarding internal control weaknesses are collectively considered g
material internal control weakness.

The report identifies questioned costs related to RISA subrecipients
including City Year Rhode Island (Schedule A-1), The Rhode Island
Children's Crusade for Higher Education (Schedule A-2), the Parents
Making a Difference Program (Schedule A-3) and The International Gallery
for Heritage and Culture (Schedule A-4). Subrecipients' comments are
attached to this report as Attachments A-1 to A-4 respectively.

The following responses, prepared by RISA, specifically speak to the
"collectively material" compliance and internal control findings listed in the
report, the questioned costs attributable to subgrantees, and include other
comments on audit report presentation.


RISA Response to Finding 1
We disagree with compliance finding No. 1. "Late" submission of our
Federal Cash Transaction Report (FCTR) should not be interpreted as a
"collectively material noncompliance" and internal control weakness; this
finding is inaccurate. We also disagree with the audit report assertion that
RISA's reporting controls and procedures "did not suitably emphasize the
significance of timely and accurate cash management."

Our procedures suitably emphasize the significance of timely and accurate
cash management (please be aware that these procedures and internal
controls are not limited to timely and accurate FCTR filing alone). In terms
of FCTR filing, our accountant prepares the Quarterly Federal Cash
Transaction Report and provides it to our Executive Director or Compliance
Officer for review and approval well before the established deadline. If any
discrepancies are noted, they are reviewed and reconciled with the
accountant and the FCTR is revised as needed before final submission by the
due date. Illf a problem exists with the online Payment Management System
(PMS), we contact the responsible official at PMS and work with them to
correct any inaccuracies as needed so we can file appropriately. During the
period under audit the FCTRs were either manually or electronically
submitted to PMS by RISA's Executive Director or electronically submitted
by RIOSA's Compliance Officer. The position descriptions and reporting
responsibility levels of the Executive Director and Compliance Officer, as
well as our practices, emphasize the importance of meeting federal reporting
requirements.

During the period under review the FCTR changed from a manual to an
electronic reporting system. We experienced many technical problems
while trying to file reports from a Mac platform - for example, the report
forms could not be downloaded, reports were not posted on-line until or
immediately before the deadline, and beginning balances were simply
incorrect. One FCTR during this period inaccurately indicated that we had a
beginning cash balance of 11 million dollars. We were unable to change this
amount, however, and could not correctly report online until the error was
corrected by our contact at the Payment Management System (PMS). Also,
in some cases the electronic Federal Cash Report was not available to us
because it was not corrected and released to us online in time to file before
the deadline. These problems, of course, impacted the filing of more than
one FCTR. Per our procedures, we were in close contact with our PMS
representative during this time period to rectify the situation. Our grant
officer was continually kept informed of these impediments to timely filing
and in fact was the one to advise us when the system finally allowed us to
file our reports accurately via the electronic method.
It should be noted that the purpose of the Federal Cash Transaction Report
and its supporting regulations is to ensure the appropriate management of
Federal dollars by Grantees. Our practices of timely and accurate preparation
 and filing of FCTRs and our review and reconciliation procedures allowed
 us to detect errors in the federal cash system itself. The fact that we were
 able to recognize and rectify these problems working with our PMS
Representative and our CNCS Grants Officer testifies to our vigilance in
federal cash reporting.
While 4 of our 11 reports were not submitted "on a timely basis" during the
period under review, 7 reports were filed, on average, 14 days early.
Additionally three of the 4 late reports that were filed were due to technical
glitches in on-line reporting. In all cases our hard copy reports were
completed by the deadline.

The audit finding disregards the extenuating circumstances that resulted in
the "late" filing of electronic reports and the Service Alliance's historical
track record and practice for filing the reports both accurately and on time.


RISA Response to Finding 2
We disagree with compliance finding No. 2 that asserts "RISA's financial
management system has not been maintained in accordance with
Corporation grant provisions" and the interpretation that this is a
"collectively material noncompliance" and internal control weakness.

While we recognize that our financial management system is not the most
flexible or modem (we are investigating transitioning to a computerized
system as budget and resources allow), it is certainly adequate and in
complete compliance with grant provisions. Not insignificantly, it is also
supported by favorable A- 133 audit opinions, favorable Pre-Audit Surveys
and Standards Visits, and a total lack of material noncompliance findings
and questioned costs attributable to the use of this system during the audit.

Use of our existing systems allows us to properly identify expenditures
"attributable to this grant" from an expenditure "not attributable to this
grant" and to "identify cost by year and by budget category" as specified in
the Corporation's Financial Management grant provisions.

Our manual one-write system, computerized General Ledger, monthly
financial statements, chart of accounts, and memorandum records (discussed
below) allow us to properly segregate AmeriCorps, Learn & Serve, Federal
Administrative, State Administrative, PDAT and Disability expenditures by
grant, by type of expense, and by time period of expenditure.

While a separate account is not established for each grant year in the
accounting system, transaction dates are assigned to all accounting entries so
that expenses can be identified to the proper accounting period. For
example, we produce monthly financial statements without assigning a
specific account number to each month of the year. Additionally, we
maintain sufficient memorandum records that permit for a proper
segregation of costs and also allow for a precise and accurate reporting of
expenditures on our Financial Status Reports.

It is important to note that our administrative funds are awarded on a
calendar year basis and do not frequently overlap. We review our cash
disbursementsjournal and payroll expenses to assure that appropriate
expenses have been charged to the appropriate time period before filing
FSRs. Since we are a relatively small Commission with 5 employees (only 2
full-time) our volume of transactions is small and these types of
expenditures can be readily identified in review of the accounting records.
On average, we have 8 or fewer active grant accounts in a 12-month period.
Our internal funds make up 10% or less of our revenue and represent half of
our 8 accounts.

In terms of our AmeriCorps and Learn & Serve funds, which are largely
pass-through, we maintain Excel spreadsheets (memorandum records) that
record payments made to subgrantees by year, thereby providing an ongoing
comparison of budget to actual expenditures (Federal and Match) and
resulting available balances for each active program year.

While we recognize that this system of reporting would not be practicable
for a very large organization (which we are not), our current system is cost
effective, manageable, and in complete compliance with Corporation Grant
Provisions.


RISA Response to Finding No. 3
We do not agree that non-allocable costs of $741 charged to PDAT should
result in a finding of collectively material noncompliance and internal
control weakness. The finding is immaterial representing less than 2%
($7 l5/$3 15,000) of claimed PDAT costs. The majority (84%) of the non-
allocable costs charged to PDAT ($621) represent books that were
purchased for the Learn & Serve Program and are an allowable expenditure.
The Executive Director indicated on the invoice that the expense should be
charged to Learn & Serve but they were inadvertently charged to the PDAT
account. Since PDAT funds are traditionally used for training, book charges
would normally be charged to PDAT. Additionally, because the books were
used for training and program development for National Service Program
Directors, they are an allowable and allocable charge to the PDAT grant.
The above factors contributed to the misposting error.

The balance of the "non-allocable" costs relate to $69.00 for personal
charges that were incorrectly posted to PDAT (and properly refunded to
RISA) and a $5 1.OO refund that was posted to the wrong account in error.

Please note that we have since corrected these rnispostings in our accounting
system.

The immaterial mispostings to PDAT described in the audit finding were
due to human error, which invariably occurs. This is an unfortunate but
sometimes unavoidable situation. The audit report overstates the importance
of this immaterial finding. RISA's policies, procedures and practices are
adequate to ensure that charges to grants are allowable, allocable and
reasonable and in accordance with grant terms, conditions and governing
provisions and regulations. This is supported by favorable A- 133 audit
opinions, favorable Pre-Audit Surveys and Standards Visits, and a total lack
of material noncompliance findings and questioned costs attributable to the
use of this system during the audit. (See also our response to Finding 2
above).


RISA Response to Finding No 4
We disagree with the audit assertion that our timekeeping system is not in
accordance with OMB Circular A-122 and that this contributes to a material
noncompliance and internal control weakness. Our current approach
(described below) is adequate, accurate and results in a "reasonable
distribution of the actual work performed" in accordance with OMB Circular
A-122 m (Support of Salaries & Wages [c]). Not insignificantly, favorable
A-133 audits, standards visits and Pre-Audit Surveys also support our
system.

However, in order to be responsive to OIG audit recommendations, we have
(1) proposed supplementing our procedures with a Level of Effort
Certification for all employees, and (2) requested formal CNCS approval for
this practice in an email dated August 5,2004. We expect to receive formal
CNCS approval during the audit resolution process.
Since 1997, Service Alliance timekeeping practices have been in accordance
with "Standards of Accounting and Financial Reporting for Voluntary
Health and Welfare Organizations," specifically "Time Reporting for
Functional Expense Accounting" which requires that "Functional expense
distribution of compensation of staff members engaged in more than one
service during an accounting period requires the accumulation of reliable
data upon which such allocations can be made" and that "... accumulation of
daily detail time reports is not required in all instances; rather periodic
testing of the actual work done by employees ...may provide the data
needed to determine allocations."

Service Alliance employees record actual time worked for the time reporting
period on their timesheets. On the timesheets, employees allocate time
worked to cost objectives based on time-studies (periodic testing of actual
work performed by employees) that are periodically reviewed and
incorporated into budget projections. Employees are aware of the allocation
and the Executive Director reviews the time allocations in accordance with
OMB Circular A-122 m (Support of Salaries & Wages [c]) that states "...the
reports must be signed by a responsible supervisory official having first hand
knowledge of the activities performed by the employee, that the distribution
of activity represents a reasonable estimate of the actual work performed by
the employee during the periods covered by the reports." If the reports do
not reflect a reasonable distribution of actual work performed, the Executive
Director will initiate adjustments.

RISA employs a small staff of 5 (only 2 full-time) who perform indirect
grant administration type functions that only benefit the CNCS funded
programs we serve. Staff functions include program and fiscal monitoring,
training and technical assistance, and evaluation and reporting among others.
In our case completion of daily detailed time reports is not necessarily
informative or practical. For example, on one day our Office Manager may
process Accounts Payable issuing 40 checks to a variety of organizations,
including AmeriCorps and Learn & Serve subgrantees and various vendors
(i.e. PDAT and Disability consultants and trainers). On the same day she
could answer 20 telephone inquiries from a variety of sources. In practice, it
is not a practical or productive exercise for the Office Manager to attempt to
allocate her time (on her timesheet) to this level of detail on a daily basis.
This example holds true for RISA staff. Our current practice described
above (or as supplemented by a level of effort certification by RISA staff) is
both practical and accurate resulting in a reasonable distribution of the actual
work performed and an acceptable approach in accordance with OMB
Circular A- 122.


RISA Response to Finding No. 5
We disagree with Audit finding Number 5. The audit report erroneously
claims that some subrecipients were paid living allowances in excess of
authorized amounts and that this contributes to a "collectively material
noncompliance" and "internal control weakness."

Not only is the questioned amount immaterial (representing .07% of total
AmeriCorps Funds claimed--$4,664/$6,449,155),         it is also allowable as (1)
the stipends paid did not exceed the AmeriCorps cap or limitation on
stipends, (2) members were still in service andlor had a longer length of
service than their peers, (3) member service occurred within the allowable
12-month window, (4) sub-grantee stipend budgets were not exceeded, and
( 5 ) the subrecipients appropriately met all other criteria including match
requirements for stipends.

RISA Response to Finding No. 6
While we acknowledge that some subrecipients exceeded the 20% ceiling
limit for training individually, in aggregate, AmeriCorps Program training
hours were within the ceiling limit with 19.77% of training to total service
hours (1668 13.66 1843941.80) for the period under review.

In practice, the training hour limit is difficult if not impossible for programs
or RISA to monitor in a meaningful way. For example, a large part of
member training hours occur prior to members being placed in service. This
pre-service training can average 80 hours per member. Training hours are
also recorded on an intermittent basis throughout the year as members attend
weekly or biweekly trainings as required. Since the training hours are "front
loaded" in this way, the program can be exceeding the ceiling limit for
almost the entire program year. As more and more service hours are accrued
each month, the ratio of training to service hours declines. It is usually not
until the last quarter of the year when it becomes evident that the ceiling
limit will be met. This problem is also compounded by attrition: while
100% of our AmeriCorps members receive training, a smaller percentage
completes service. Without being able to place a member in service (who
would also need training!) or to otherwise increase member service hours to
offset the effects of attrition, the only other option is to eliminate training
that is necessary for effective service, thus diminishing program quality.

Our subgrantees strive to recruit a diverse corps to work with the diverse
communities we serve. Each member brings their unique perspective,
experiences, skills and abilities to our AmeriCorps programs, all
contributing to each program's success. Understandably, members come
from different socio-economic and educational backgrounds and training
needs can vary significantly among members and across programs. On
balance, we believe our programs are doing their best to prepare members
for service and to recruit a diverse corps without adversely impacting quality
service delivery or compromising service hours.

We believe that, over time, by enforcing the most restrictive interpretation of
this grant provision, CNCS would unknowingly be adversely impacting
program diversity and, therefore, quality. For the risk-averse, the surest way
to avoid exceeding the training ceiling limit is to exclusively or primarily
recruit college-educated members. This would have disparate impact on
poor communities and communities of color as education levels vary
significantly with socio-economic status and not all members would have an
equal chance to serve. Effective community development efforts are most
effective when service comes from within and draws from the talents of the
community.

RISA Response to Finding No. 7
A discrepancy between recorded and actual match for one sub-grantee does
not constitute a "collectively material noncompliance" and internal control
weakness. While this one sub-recipient made technical errors in reporting
match in its official books and records, it did not result in a "collectively
material noncompliance and internal control weakness." In this case, the
sub-grantee provided source documentation to the auditors confirming that
the match on the grant was actually met. While we think the sub-grantee
should take corrective action, this does not constitute a "collectively material
weakness," since there is no resulting cost questioned and compensating
controls are clearly in place.

RISA addresses matching requirements during the entire grant life cycle.
Potential subgrantees are informed of match requirements during our
Request for Proposal (RFP) process and during our RFP Training Sessions.
Program Directors receive annual training at the Program Director's Retreat.
At this training, Program Directors receive a Program Director's Manual
which includes our site visit tool (the tool includes specific monitoring steps
for match requirements), our drawdown request checklist for match
requirements, sample forms to be used to document match, and CNCS grant
provisions for match requirements. Each subgrantee must also complete a
"Fiscal Management Self Reporting Tool" (FMSRT) (included in the
Program Director's Binder) which includes a separate disclosure section on
how the organization accounts for match. The organization also must pass a
fiscal fitness screening process which includes a review by RISA of the
organization's FMSRT disclosure. We also provide specific training to
program fiscal personnel each year. The fiscal training encompasses
specific match reporting and documentation requirements.

In addition to the above internal controls, RISA monitors match with each
drawdown request to be sure it is keeping pace with federal expenditures and
meeting match requirements. We also conduct annual site visits over the 3-
year grant cycle and review match documentation. This includes a review of
payroll records to ensure stipends (cash match) are being paid appropriately.
We also review source match documentation during our site visits to ensure
that the sub-grantee is achieving match (copies of checks and transmittal
letters, in-kind donation vouchers etc.). Because there is frequently a delay
in recording in-kind match in the accounting system (and that some in-kind
match is appropriately not recorded in financial statements), we also rely on
source documentation during our site visit for verification.

During our most recent site visit of the International Gallery, the outside
accountant was not available to review match documentation with us due to
health issues. Consequently, we noted in our file and to our sub-grantee that
this documentation would be required and reviewed before grant closeout,
which in this case is pending. Therefore, any reporting problems would have
been detected before grant closeout and issuance of the Gallery's final
Financial Status Report.

It should be noted that RISA's review of subgrantee match documentation
occurs at-a-point-in time during RISA's annual subgrantee site visits. On
average, site visits are conducted over a 1 or 2 day time period and usually
involve 2 staff members. The site visit covers all aspects of program
operations, including fiscal and grant compliance. During the period under
review, anywhere from 12 to 16 site visits were conducted by RISA on an
annual basis. We are a small Commission with limited resources (five
employees, only 2 full-time) and correctly rely on our extensive internal
control procedures and our subgrantee' s internal controls (including A- 133
audits) and certifications to reasonably assure that grant requirements are
being met.

In contrast, the IG's review of subgrantee match documentation was a
detailed, after-the-fact full scope review of match requirements including
specific tests of accounting records and verification procedures at each
location. During the course of this audit, 2 auditors spent an average of 2
weeks at each of the 8-subgrantee sites audited, not including fieldwork at
RISA.

We will follow up to ensure that the situation at the Gallery is corrected. We
will continue to monitor this area in our annual site visits and will include
additional coverage in our annual subgrantee fiscal training sessions as
appropriate. However, it is important to note that the purpose of our site visit
is not to conduct an Inspector General-style audit, nor do we have the
resources to do so.


RISA Response to Finding No. 8
Missing documentation for certain aspects of member eligibility (Citizenship
and Education) should not result in a finding of a "collectively material"
noncompliance. While it is true that some sub-grantees did not maintain
 adequate documentation for member eligibility in a small number of member
files, the report overstates the issue by classifying this as contributing to a
 material noncompliance.

The audit report is not specific regarding the number of member files
reviewed and the number of files that did not contain adequate
documentation (was it 1 of 100 files reviewed? 1 of 250?). It also misleads
the reader by suggesting that three sub-grantees did not maintain required
eligibility documentation for their members, when in fact all sub-grantees
maintained such documentation, but had several documents missing at the
time of the audit. Government Auditing Standards (8.41) specify that
"giving report users an adequate and correct understanding means providing
perspective on the extent and significance of reported findings, such as the
frequency of occurrence relative to the number of cases or transactions
tested." The report clearly failed to meet this requirement.
Combined, the 4 AmeriCorps subgrantees audited maintained 555 member
files over the period under audit. Based on feedback from these programs,
the average member file contains 73 pages of documents. We estimate these
programs maintained 40,5 15 pages of documents it total, not considering
other program documentation maintained outside the member files.

The audit report is inaccurate in its assertion that "Without complete
member files, RISA cannot verify that member eligibility requirements are
being met" when in fact all of our sub-grantees have systems for maintaining
files which we can -and do- readily review during site visits to determine
whether or not eligibility documentation is appropriate. When such
documentation is missing we routinely take appropriate corrective action in
accordance with our own established policies and procedures. Since such
policies were made available to auditors, it should have been obvious that
appropriate checks and monitoring systems were in place, not to prevent but
to immediately address human errors, which invariably occur.

Furthermore, all costs questioned relating to citizenship eligibility (the
majority of questioned costs) were already evidenced in our site visit
reports and continue to be actively monitored and pursued; the audit
only confirmed our own findings. RISA requires subgrantees to back out
ineligible costs from final claims at or prior to closeout. Because of the OIG
audit, RISA delayed closeout to provide greater flexibility to auditors and to
discourage confusion at the subgrantee level. The Service Alliance did not
fail to act, the audit occurred while the monitoring process was still in
progress and on track to successful completion. As planned, eligibility
issues remaining at the time of closeout will be backed out of the sub-
grantees' final claims, corrected on the final FSRs, and refund checks will be
issued to CNCS with final closeout documents.

As discussed at the exit briefing, we conduct extensive training for our sub-
grantees annually (both Program Directors and Fiscal Staff) and this is
clearly documented. The purpose of the training is to make sure sub-
grantees are well versed in AmeriCorps requirements and have the tools they
need to ensure compliance. A Program Director's binder is provided that
includes the grant provisions as well as copies of RISA's site visit tools.
The binder also includes examples of appropriate immigration forms and
documentation, member file checklists, sample member contracts and other
examples of best practices.
We also conduct comprehensive annual site visits of each sub-grantee and
did so during the time period under review. We use a site visit tool (similar
to an audit program) that is provided to our sub-grantees in their Program
Director's Binder. The site visit tool includes both programmatic and
compliance checklists. We perform a 100% member file review for
citizenship eligibility. On a test basis we take a random sample of member
files and verify both that eligibility documentation exists and that it is
adequate (age, education, etc). We also review member files for other
attributes, examine financial records for compliance and documentation,
interview AmeriCorps members, staff, and make observations at service
sites. The sub-grantee is put on notice of any deficiencies in a site visit
report. In the case of missing documentation, the policy of the Service
Alliance is that all outstanding issues need to be rectified at or prior to
closeout. Our sub-grantees have been actively seeking any missing
documentation in anticipation of this process and some of this
documentation has been provided to the auditors for examination during the
audit.


RISA Response to Finding No. 9.
"Two subrecipients exceeded the mandated AmeriCorps provisional
ceiling of 5 percent on administrative costs chargeable to grants."

We disagree that the condition described in the audit finding results in a
"collectively material noncompliance" and internal control weakness. Not
only is the amount described immaterial (representing .09% of total
AmeriCorps Funds claimed--$6,055/$6,449,155),     half of the amount cited as
a noncompliance was in fact authorized and in accordance with CNCS
guidelines. The remaining amount in question was the result of a
bookkeeping error in a subrecipient's accounting system. This error, which
would have been detected following routine review of the program's final
drawdown request, has since been corrected.

In the case of the Public Education Fund, its' 02-03 administration expenses
were both authorized and allowable. While other budget changes were made
during the program year, reductions were not made to the administrative
budget due to the impact of the enrollment freeze in accordance with CNCS
guidelines. CNCS issued the guidance as a result of the CNCS' 02-03
member enrollment freeze that prevented programs from enrolling members
although they had received grant awards and were fully staffed for that
specific purpose. The guidance was issued in recognition that organizations
had fixed costs that they were not able to avoid because the Corporation
unilaterally froze enrollment. We explained this to the auditors during the
audit and provided them with a copy of the relevant CNCS guidance.

International Gallery for Heritage & Culture. The International Gallery
made a bookkeeping error in posting administrative expenses to the grant.
The Gallery has already made an adjusting entry in their books and records.
The correction will be reflected in the Corporation's Web Based Reporting
System (WBRS) and in the final Financial Status Report on closeout. We
monitor the administrative ceiling limits when we review each drawdown
request. While the Gallery has not submitted a final drawdown request that
reflected the limit was exceeded, the program did update their Periodic
Expense Report in WBRS that reflected the bookkeeping error. Our
closeout certification process also provides final verification procedures to
assure match requirements are met and documented and that expenditures
are within administrative limits on the grant. This grant is subject to
closeout. This error would have been detected with the final drawdown
request and in the closeout certification process.

In any case, as stated in the audit report, this 5% limit is administered on a
grant-wide basis. We are fully in compliance with the 5% grant-wide limit.

RISA Response to Finding No. 10
Misc. non compliance documentation issues.
We disagree with the opinion that Compliance Finding No. 10 ("some
AmeriCorps member files were missing required documentation") can be
interpreted as contributing to a "collectively material noncompliance." The
report finding does not provide appropriate perspective on the significance
of the reported finding. Subgrantees have systems in place for member files.
Combined, the 4 AmeriCorps subgrantees audited maintained more than
40,000 pages of documentation for the period under review. Government
Auditing Standards (8.41) specify that "Giving report users an adequate and
correct understanding means providing perspective on the extent and
significance of reported findings, such as the frequency of occurrence
relative to the number of cases or transactions tested.. . '
                                                         9




All subgrantees funded by the Service Alliance have systems in place that
are fully consistent with all federal and state grant provisions. During on-site
visits conducted by the Service Alliance staff, we monitor subgranteest use
of the established systems by reviewing member files individually and
assessing the overall condition of subgrantees' files. The fact that some
required documents were missing from the files of several members does not
mean that the systems that our subrecipients have in place are not adequate
or contribute to a collectively material weakness. The fact that most member
files had all required documentation suggests not only that existing systems
are adequate, but also that the Service Alliance is successful in ensuring that
these systems are used consistently.

Subgrantees maintain extensive member files and have systems and
checklists in place to track receipt and completeness of required
documentation. Combined, the subgrantees listed in Audit Schedules A-1 to
A-4 maintained 555 member files during the 3-year period under review.
On average, each subgrantee member file contained 72 pages of
documentation representing a total of 4O,5 15 pages of documents. This
documentation includes, but is not limited to, member contracts, member
handbooks, position descriptions, applications, reference checks, interview
notes, emergency contact information, healthcare enrollment forms or
waivers, acceptance letters, mid- and end- of term performance evaluations,
citizenship, education and age eligibility documentation, 1-9 and W-4 forms
for members, enrollment forms, exit forms, and required certification among
others.

As explained in our response to Finding No. 7 and 8, and in addition to
subgrantee internal controls, RISA has extensive monitoring policies (CNCS
Standards and Pre-Audit Survey approved), procedures and practices in
place. These procedures include an annual review of member files at each
subgrantee site. RISA conducts annual subgrantee site visits over a 1 to 2
day time period by 2 staff members. During the period under review,
anywhere from 12 to 16 site visits were conducted by RISA on an annual
basis. In contrast, 2 IG auditors spent an average of 2 weeks at each of the 8-
subgrantee sites audited, not including fieldwork at RISA.

While we appreciate the auditors' concern that some files were missing
documentation, and the suggestion that we utilize their procedures for
monitoring subgrantees, no level of external review can provide complete
assurance that all documents will be included in each file, especially
considering the sheer volume of paperwork involved.
We are a small Commission with limited resources (five employees, only 2
full-time) and correctly rely on our extensive internal control procedures and
our subgrantee's internal controls (including A- 133 audits) and certifications
to reasonably assure that grant requirements are being met. The purpose of
our site visit is not to conduct an Inspector General - style audit, nor do we
have the resources to do so.


RISA Response to Finding No. 11
"Based on AmeriCorps Provisions 7c and 7h, training offered to
members should relate directly to the program's objectives in the
community, not to the member's personal training needs or desires.
Provision 7h mandates a support system for members to obtain a GED
or higher education including counseling members on GED courses, or
how to apply to colleges, but it bars the use of service time to be used for
such training.

We disagree with the audit finding: it is inaccurate and does not result in a
"collectively material noncompliance."

The finding inaccurately implies that member service time was used for
GED training when in fact member training; time was appropriately used for
GED training. The audit misstates and misinterprets the cited grant
provisions to argue for disallowance of GED training time as they consider it
unrelated to program objectives and believe GED training is provided only
to meet a member's personal training needs and desires.

First, the auditor is misrepresenting the cited grant provisions; the specific
language of the provisions follows:

       7c. Training. Consistent with the approved budget, the grantee must
       provide members with the training, skills, knowledge and supervision
       necessary to perform the tasks required in their assigned project
       positions, including specific training in a particular field and
       background information on the community served.

       The Grantee must conduct an orientation for members and comply
       with any pre-service orientation or training required by the
       Corporation. This orientation should be designed to enhance member
       security and sensitivity to the community. Orientation should cover
      member rights and responsibilities, including the Program's code of
      conduct, prohibited activities, requirements under the Drug-Free
      Workplace Act, suspension and termination from service, grievance
      procedures, sexual harassment, other non-discrimination issues and
      other topics as necessary.

      7h. Support Services. The Grantee must provide specific support
      services to members who are school dropouts by assisting them in
      earning the equivalent of a high school diploma; and to members who
      are completing a term of service and are making the transition to other
      education and career opportunities.

The cited provisions do not state that training should only benefit the
program and not benefit the member. The provision does not bar the use of
GED time as training time. This longstanding practice in Rhode Island has
been fully and traditionally authorized by CNCS and not barred by
AmeriCorps Provisions as asserted in the audit.

Additionally, a member's pursuit of a GED absolutely relates directly to the
program's objectives in the community. National and Community Service
funding in the state of Rhode Island is exclusively earmarked for education
related programs. Members largely work with children in school and in
after-school settings implementing tutoring, literacy, stay-in-school,
homework clubs, and other similar programs. It is absurd to imply that this
training is simply to meet a member's personal training needs and desires.
Programs train members so they will be prepared to deliver impactful
services to the community and prepared for success in their own lives.
Training is dictated by AmeriCorps requirements and program, partner
agency, and service recipient needs. At the same time programs cannot
ignore the fact that members come from a variety of backgrounds and
training plans are appropriately tailored so both individually and collectively
members are prepared to serve.

It comes as no surprise to us that some training offered by AmeriCorps
Programs may personally benefit AmeriCorps members. We can all
acknowledge that, to some extent, people personally benefit from most
learning experiences. Likewise, AmeriCorps members may personally
benefit from both their AmeriCorps training and the AmeriCorps Service
experience itself. Grant provisions do not prohibit member learning and
growth; they encourage it.
Since Rhode Island's AmeriCorps portfolio is entirely education-focused, it
is not a coincidence that programs attract individuals interested in education,
teaching, and working with children. Often a member's personal training
needs and desires may overlap with a program's training plan. We consider
this circumstance serendipitous and a beneficial aspect of AmeriCorps that
positively contributes to member service, retention and development. It is
absurd to suggest otherwise.

RISA Response to Finding No. 12
"The RISA financial management system does not have an adequate
disasterhack-up plan.

The audit report is inaccurate in its assertion that "RISA's Financial
Management System does not have an adequate disasterhack-up plan"
and that this finding results in an internal control weakness. Although
RISA does not have a formal written disaster plan, we have made provisions
for an accounting disaster and have an adequate protocol in place. Copies of
the cash disbursement journal, cash receipts journals, general journal and
ledger are kept off premises in our CPA's office. (Executive Director was
not aware that copies of the cash disbursement journal have been kept at our
CPA's office at the time of the formal entrance conference.) The bank stores
copies of our checks. Finally, a computer back up disc is burned bi-weekly
and kept in a fireproof safe off-site. We will commit our current practice to
writing to provide documentation of our established procedures.


RISA Comments on Questioned Costs

City Year (Schedule A-1), RI Children's Crusade for Higher Education
(Schedule A-2)' Parents Making A Difference Program (Schedule A-3),
International Gallery for Heritage & Culture (Schedule A-4).

Questioned costs related to the above subgrantees are contained in the
referenced audit schedules. Our subgrantees have provided specific
comments related to cost questioned in Attachments 1 to 4. Additionally, as
discussed in our responses to individual Audit Findings:

       AmeriCorps Members Compliance Issues $84,488 and related
       questioned education awards $32,580.
While some subgrantees' documentation was missing at the time of
issuance of this audit report (similar findings regarding missing
documentation for citizenshiplresidency status was included in our
own site visit reports), our subgrantees have been actively seeking
missing documentation (see our response to Audit Finding No. 8 and
subgrantee responses include as Attachments 1.a.1, 1.a.2, and as
Attachments 3 and 4). We believe that some of the costs questioned
will be in fact supported during the audit resolution process and
before grant closeout. Indeed, in response to the audit findings, The
Education Partnership (successor fiscal agent of the Parents Making A
Difference program) provided additional documentation to the IG
auditors that they believe will reduce the member compliance cost
questioned by $22,876 (see Attachment 3).

Also, with regard to questioned education awards, many of these
awards have been placed on hold by the Trust based on notification
from the Service Alliance as a result of missing documentation noted
at site visits. Therefore, the "cost questioned" is overstated as these
education award expenses will not materialize even if the subgrantee
cannot provide required eligibility documentation.

Please note we do not agree with the Education Partnership's
assertion (Attachment 3) that ineligibility issues identified during
RISA site visits were resolved with PMD Program Directors.
 Outstanding issues with program documentation remained and
needed to be resolved before closeout. The program was notified of
RISA's site visit findings during each site visit and through written
 site visit reports provided to the program. The PMD program did not
 receive funding for program year 03-04. The program was disbanded
 and all records were sent to the Education Partnership as successor
fiscal agent. RISA notified the Education Partnership's new Finance
 Director of the outstanding documentation that would be needed prior
 to closeout. Apparently, the Finance Director was not aware of the
 outstanding issues prior to that date. In any case, we view this as an
 internal communication problem at the program and fiscal agent
 level.


Member Training Costs in Excess of 20% Ceiling $55,638
While we acknowledge that some subrecipients exceeded the 20%
     ceiling limit for training individually, in aggregate AmeriCorps
     Program training hours were within the ceiling limit with 19.77%
     training to total service hours. See our detailed response to Audit
     Finding No. 5 included and subgrantee responses included as
     Attachments lb, 2 and 3.

     Please note we do not agree with the Education Partnership's
     assertion that "The Rhode Island Service Alliance reviewed and
     authorized these expenses in their fieldwork." We believe this is a
     misconception. RISA reviews program training plans to ensure that
     training meets CNCS grant provision requirements. Also, on a test
     basis, RISA reviews expense documentation during site visits to veriJL
     they are authorized and allowable and agree with information
     reported to RISA and CNCS. We do not "authorize'' expenditures
     during our site visits.

      Living Allowance Payments in Excess of Limits $4,664
      We don't agree that "some subrecipients were paid living allowances
      in excess of authorized amounts," as noted in our detailed response to
      Audit Finding No. 5. See also subgrantee responses included as
      Attachments lc, 3, and 4.

      Questioned Staff Salaries (Net) $2,008
      Please see individual subgrantee responses included in Attachments
      Id and 2.

      Administrative Costs Related to Cost Questioned $2,161
      A final determination will be made during the audit resolution process
      as questioned administrative costs would be applied only to
      questioned costs remaining at that time and as applicable.


RISA Comments on Audit Report Presentation

Basis of Accounting Section - draft audit report page 10
The audit report is inaccurate in its description of our Basis of Accounting
for Equipment (draft audit report page 10). In 1994, RISA' s Board
approved a policy to capitalize all equipment purchases over $1,000 and
depreciate them over their useful life. This is evidenced in RISA's audited
financial statement, specifically the Statement of Financial Position (see
equipment.)

Definition of Questioned Costs - draft audit report pages 1 & 11
The definition of questioned costs used in the audit report (pages 1 and 11)
is misleading and does not agree with the standard A-133 and 7CFR
definitions of questioned costs. Government Auditing Standards (GAS)
require that the audit report be accurate (8.43), objective and not misleading
(8.46).

The draft audit report asserts questioned costs were expended in "violation
of laws" when the A-133 and 7CFR definitions use different language:
"<questioned costs are costs> which resulted from a violation or possible
violation of a provision of a law.. ." This is an important distinction, as the
definition as its stands implies that laws (and not provisions of laws) were
violated, not possibly violated.

Also, on page 11, the same non-standard definition of questioned costs
immediately precedes a listinglpresentation of questioned costs.

"Questioned costs are costs for which there is documentation that the
recorded costs were expended in violation of laws, regulations or specific
conditions of the awards, or those costs which require additional support by
the grantee, or costs which require interpretation of allowability by the
Corporation."

Grammatically the definition employs parallelism by using the word "or" in
its sentence structure: there is an implicit hierarchy of value in this clause.
As such, this sentence is misleading in that it implies that questioned costs
were largely in violation of the law, secondarily in violation of specific
conditions of the awards, or costs which require additional support by the
grantee, and lastly that they were costs which may require interpretation of
allowability by the Corporation. This is misleading, as "questioned costs"
listed in the draft report appear largely to be matters of lack of
documentation or, perhaps, interpretation.

Compliance Section- draft audit report Page 3
The audit cites "instances of noncompliance with Federal laws, applicable
regulations and award conditions." Again, the auditor's interpretation is not
a noncompliance with a "provision of a law" but with "Federal laws"
themselves. This is inaccurate.

The audit report enumerates 11 instances of noncompliance that are
"collectively" considered to be material. If this is the case, the audit findings
should be numbered la, lb, l c etc. so as to put audit findings in an
appropriate context in accordance with Government Auditing Standards on
Objectivity (see below). In the current audit report presentation, it is difficult
to discern any difference between the prior audit report version that cited all
these items as "material" instances of noncompliance and the most recent
version where they are considered "collectively material" but the weight of
their presentation in the audit report is unchanged.


Objectivity
Government Auditing Standards (8.46 - 8.53) on "Objectivity" require that
the entire audit report be balanced in content, that it should not be
misleading and that it should place the audit results in perspective and
context. This includes recognition of the positive aspects of the program
reviewed if applicable to the audit objectives. (Please note: the Audit
Prograrn/Objectives (3 1 pages) required review of many aspects of
Commission and subgrantee operations including the Commission's
Selection of Subgrantees, RISA's administration and monitoring of grant
funds and subgrantees and AmeriCorps Member Service and Program
Accomplishments.)

As currently presented, we strongly believe that the audit report is not
objective. As supported by our responses to audit findings and comments
regarding audit report presentation, the report is clearly not balanced in
content, in certain sections the audit report is misleading, and audit findings
are not placed in appropriate context. Additionally, the audit report does not
recognize any positive aspects of the programs under audit, of which there
are many, and this was directly applicable to audit objectives.
                         Appendix B


Response of the Corporation for National and Community Service
                                Corporation for      P




To:           J. Russell George, Inspectofleneral


From:

Cc:           ~ich&illemin,         w;:
              Rosie Mauk, Director of Am
                                                         s Management

                                                        officer



Date:         August 23,2004


Subject:      Response to OIG Draft Audit Report 04-22, Audit of Corporation for
              National and Community Service grants awarded to the Rhode Island
              Service Alliance


We have reviewed the draft audit report of the Rhode Island Service Alliance grants.
Due to the limited timeframe for response, we have not yet conducted a comprehensive
review nor analyzed documentation from the Rhode Island Commission supporting the
questioned costs. We will respond to all findings and recommendations when the audit is
issued and we have reviewed the findings in detail.




                       1201 New York Avenue, NW     *
                                                  Washington, DC 20525
                             202-606-5000 + www.nationalservice.org
                                                                                     Freedom Corps
                       Senior Corps + AmeriCorps   * Learn and Serve America         The Resident's Call to ~ c K i c e
